OFFICE OF INSPECTOR GENERAL



AUDIT OF USAID’S
FINANCIAL STATEMENTS FOR
FISCAL YEARS 2010 AND 2009
AUDIT REPORT NO. 0-000-11-001-C
November 12, 2010




WASHINGTON, DC

Office of Inspector General

November 12, 2010

MEMORANDUM

TO:            David D. Ostermeyer, Chief Financial Officer

FROM:          Joseph Farinella, AIG/A /s/

SUBJECT:       Audit of USAID’s Financial Statements for Fiscal Years 2010 and 2009

The Office of Inspector General (OIG) is transmitting its report on the Audit of USAID’s Financial
Statements for Fiscal Years 2010 and 2009. Pursuant to the Government Management Reform
Act of 1994, USAID is required to prepare consolidated financial statements as of the end of the
fiscal year. USAID is also required to submit a Performance and Accountability Report,
including audited financial statements, to the Office of Management and Budget (OMB) and the
Department of the Treasury by November 15, 2010. In accordance with fiscal year 2010
requirements of OMB Circular A-136, USAID has elected to prepare an alternative Agency
Financial Report that includes an Agency Head Message, Management’s Discussion and
Analysis, and a Financial Section.

The OIG has issued unqualified opinions on each of USAID’s principal financial statements for
fiscal years 2010 and 2009. With respect to internal control, we identified one deficiency that
we consider to be a material weakness. The material weakness pertains to USAID’s process to
reconcile its Fund Balance with the U.S. Treasury. Additionally, we identified certain
deficiencies in internal control that we consider to be significant deficiencies. The significant
deficiencies pertain to USAID’s (1) process to reconcile loans receivables; (2) accounting for
and reporting property, plant, and equipment; and (3) reconciliation of intragovernmental
transactions.

We noted no instances of substantial noncompliance with Federal financial management
systems requirements, Federal accounting standards, or U.S. Standard General Ledger at the
transaction level as a result of our tests required by Section 803(a) of the Federal Financial
Management Improvement Act of 1996. This report contains three recommendations to
improve USAID’s internal control over financial reporting.

We have considered your response to the draft report and the recommendations included
therein and have reached management decisions on the recommendations. Please forward all
information to your Office of Audit, Planning and Coordination for final action. (See Appendix II
for USAID’s Management Comments).

We appreciate the cooperation and courtesies extended to us during the audit. The OIG is
looking forward to working with you on our audit of the fiscal year 2011 financial statements.
CONTENTS

Summary of Results ....................................................................................................... 1 


Background ..................................................................................................................... 2 


     Audit Objective.......................................................................................................... 2 


Independent Auditor’s Report on USAID’s Financial Statements.............................. 3 


Report on Internal Control ............................................................................................. 5 


     Material Weakness .................................................................................................... 6


     USAID Does Not Reconcile Its Fund Balance with 

     Treasury Account ........................................................................................................ 6 


     Significant Deficiencies............................................................................................ 7 


     USAID’s Process to Reconcile Loans Receivable 

     Is Not Effective ............................................................................................................ 7 


     USAID’s Process to Account for and Accurately Report 

     Property Plant and Equipment Is Not Effective ........................................................... 8 


     Intragovernmental Transactions Remain Unreconciled .............................................. 9 


Report on Compliance with Laws and Regulations................................................... 11 


Evaluation of Management Comments ....................................................................... 13 


Appendix I – Scope and Methodology ........................................................................ 14 


Appendix II – Management Comments ....................................................................... 16 


Appendix III – Status of Prior Year Findings and Recommendations...................... 18 


Appendix IV – Financial Statements, Notes, and Required Supplementary

Information .................................................................................................................... 20 

SUMMARY OF RESULTS

USAID’s consolidated balance sheets, consolidated statements of changes in net
position, consolidated statements of net cost, and combined statements of budgetary
resources present fairly, in all material respects, the financial position of USAID as of
September 30, 2010, and 2009; and its net cost, net position, and budgetary resources
for the years then ended, in conformity with generally accepted accounting principles.

This audit identified one deficiency in internal control that the audit team considered to
be a material weakness, related to USAID’s process to reconcile its Fund Balance with
the U.S. Treasury. The audit also identified three deficiencies in internal control that the
audit team considered to be significant deficiencies, related to the following aspects of
USAID’s financial management process to:

   •   Reconcile loans receivable
   •   Account for property, plant, and equipment
   •   Reconcile intragovernmental transactions

This audit identified no instances of substantial noncompliance with Federal financial
management systems requirements, Federal accounting standards, or U.S. Standard
General Ledger at the transaction level as a result of the tests required by Section
803(a) of the Federal Financial Management Improvement Act of 1996, Public Law
104-208.




                                                                                          1
BACKGROUND

USAID was created in 1961 to advance U.S. foreign policy interests by promoting broad-
based sustainable development and providing humanitarian assistance. USAID has
missions in more than 88 countries, 46 of which have full accounting operations with
USAID controllers. For the fiscal year ended September 30, 2010, USAID reported total
budgetary resources of approximately $25 billion.

Pursuant to the Government Management Reform Act of 1994, USAID is required to
submit audited financial statements to the Office of Management and Budget annually.
Pursuant to this act, for fiscal year (FY) 2010, USAID has prepared the following:

   •	   Consolidated Balance Sheet
   •	   Consolidated Statement of Net Cost
   •	   Consolidated Statement of Changes in Net Position
   •	   Combined Statement of Budgetary Resources
   •	   Notes to the Principal Financial Statements
   •	   Other Required Supplementary Information

AUDIT OBJECTIVE
The Office of Inspector General (OIG) performed these audits to answer the following
question:

•	 Did USAID’s principal financial statements present fairly the assets, liabilities, net
   position, net costs, changes in net position, and budgetary resources for fiscal years
   2010 and 2009?

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with accounting principles generally accepted in the United
States of America, USAID’s assets, liabilities, and net position; net costs; changes in net
position; and budgetary resources as of September 30, 2010, and 2009, and for the
years then ended.

In accordance with Government Auditing Standards, the OIG has also issued reports,
dated November 12, 2010, on its consideration of USAID’s internal control over financial
reporting and on its tests of USAID’s compliance with certain provisions of laws and
regulations. These reports are an integral part of an overall audit conducted in
accordance with Government Auditing Standards and should be read in conjunction with
the independent auditor’s report.




                                                                                         2
INDEPENDENT AUDITOR’S
REPORT ON USAID’S
FINANCIAL STATEMENTS
We have audited the accompanying consolidated balance sheets of USAID as of
September 30, 2010, and 2009, and the consolidated statements of changes in net
position, consolidated statements of net cost, and combined statements of budgetary
resources of USAID for the years ended September 30, 2010, and 2009. These
financial statements are the responsibility of USAID’s management. Our responsibility is
to express an opinion on these financial statements based on our audits.

We conducted the audits in accordance with auditing standards generally accepted in
the United States; generally accepted Government Auditing Standards issued by the
Comptroller General of the United States; and Office of Management and Budget (OMB)
Bulletin No. 07-04, Audit Requirements for Federal Financial Statements. Those
standards and OMB Bulletin 07-04 require that we plan and perform the audits to obtain
reasonable assurance that the financial statements are free of material misstatements.
An audit includes examining, on a test basis, evidence supporting the amounts and
disclosures in the financial statements. An audit also includes assessing the accounting
principles used and the significant estimates made by management, as well as
evaluating the overall financial statement presentation. We believe that these audits
provide a reasonable basis for our opinion.

In our opinion, the financial statements referred to above present fairly, in all material
respects and in conformity with accounting principles generally accepted the United
States of America, USAID’s assets, liabilities, and net position; net costs; changes in net
position; and budgetary resources as of September 30, 2010, and 2009, and for the
years then ended.

Management’s Discussion and Analysis and Required Supplementary Information
sections are not required parts of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information and
accordingly, we do not express an opinion on it.

In accordance with generally accepted Government Auditing Standards, we have also
issued reports, dated November 12, 2010, on our consideration of USAID’s internal
control over financial reporting and on our tests of USAID’s compliance with certain
provisions of laws and regulations. These reports are an integral part of an overall audit
conducted in accordance with Government Auditing Standards and should be read in
conjunction with this report.

This report is intended solely for the information and use of those charged with
governance at USAID (the USAID Administrator, Deputy Administrator, Assistant


                                                                                         3
REPORT ON
INTERNAL CONTROL
We have audited the consolidated balance sheets of USAID as of September 30, 2010,
and 2009. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2010, and 2009, and have issued our report
thereon dated November 12, 2010. We conducted the audits in accordance with
auditing standards generally accepted in the United States; generally accepted
Government Auditing Standards issued by the Comptroller General of the United States;
and Office of Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements
for Federal Financial Statements.

In planning and performing our audits of USAID’s financial statements for the fiscal years
ended September 30, 2010 and 2009, we considered USAID’s internal control over
financial reporting by obtaining an understanding of USAID’s internal control, determined
whether internal controls had been placed in operation, assessed control risk, and
performed tests of controls in order to determine our auditing procedures for the purpose
of expressing our opinion on the financial statements. We limited our internal control
testing to those controls necessary to achieve the objectives described in OMB Bulletin
No. 07-04. We did not test all internal controls relevant to operating objectives as
broadly defined by the Federal Managers' Financial Integrity Act of 1982 (FMFIA), such
as those controls relevant to ensuring efficient operations. The objective of our audit
was not to provide an opinion on internal control. Accordingly, we do not express an
opinion on internal control.

Our consideration of internal control was for the limited purpose described in the
preceding paragraph and would not necessarily identify all deficiencies in internal control
that might be material weaknesses or significant deficiencies. However, as discussed
below, we identified certain deficiencies in internal control that we consider to be
material weaknesses or significant deficiencies.

A material weakness is a deficiency or a combination of deficiencies in internal control
that presents a reasonable possibility that a material misstatement of the entity’s
financial statements will not be prevented, or detected and corrected on a timely basis.
We identified one deficiency in internal control that we consider to be a material
weakness, as defined above, relating to USAID’s reconciliation of its Fund Balance with
the U.S. Treasury.

A significant deficiency is a deficiency or a combination of deficiencies in internal control
that is less severe than a material weakness, yet is important enough to merit attention
by those charged with governance. We consider the following deficiencies to be
significant deficiencies in USAID’s internal control:

   •	 USAID’s process to reconcile loans receivable is not effective and does not
      resolve differences in a timely manner.
   •	 USAID’s process to account for and accurately report property, plant, and



                                                                                           5
        equipment is not effective.
    •   USAID’s intragovernmental transactions remain unreconciled.

Management’s Discussion and Analysis and Required Supplementary Information
sections are not required parts of the consolidated financial statements but represent
supplementary information required by OMB Circular A-136, Financial Reporting
Requirements. We have applied certain limited procedures to this information, primarily
consisting of inquiries of management regarding the methods of measurement and
presentation of this information. However, we did not audit this information, and
accordingly we do not express an opinion on it.

We also noted other matters involving the internal control over financial reporting, which
we reported to USAID’s management in a separate letter dated November 15, 2010.

Material Weakness
USAID Does Not Reconcile Its Fund Balance with Treasury
Account with the U.S. Treasury and Resolve Reconciling Items
in a Timely Manner (Repeat Finding)
USAID continues to have large unreconciled differences between the Fund Balance with
Treasury account recorded in its financial accounting system (Phoenix) and the Fund
Balance reported by the U.S. Department of the Treasury (Treasury). As of September
30, 2010, these differences totaled approximately $64 million net ($894 million absolute
value). USAID recorded adjustments of $64 million at the end of fiscal year (FY) 2010 to
ensure that the Fund Balance with Treasury account agreed with the balance reported
on Treasury’s Form 2108, Year End Closing Statement. These differences persist
because USAID and its missions did not consistently perform monthly reconciliations of
its Fund Balance with Treasury account and research and resolve reconciling items in
accordance with Treasury Financial Manual (TFM) Volume 1, Part 2-5100. In addition,
Treasury frequently recorded payments made by the Department of Health and Human
Services (HHS), on behalf of USAID, in appropriations that were different than the
appropriations in which USAID recorded the identical payments. This occurred because
USAID did not provide an updated appropriations crosswalk to HHS in a timely manner.

Additionally, our audit revealed that USAID recorded transactions that could not be
readily identified in its suspense accounts, but did not research and resolve these items
within the 60 days requirement established by Treasury. USAID acknowledged that it
did not meet this requirement in its annual certification to Treasury for the period ending
September 30, 2010, and committed to do so by the end of FY 2011. During FY 2010,
USAID directed its efforts at improving its newly developed fund balance reconciliation
tool 1 to ensure that the information uploaded to the reconciliation tool was accurate.
Since the implementation of the reconciliation tool, USAID has made some progress to
identify, track, and reconcile differences between Phoenix and Treasury and to research
and properly record transactions that were previously recorded in its suspense accounts.
1
  The Cash Reconciliation Tool captures and compiles information on disbursements and
collections as reflected in Phoenix, and as reported by Treasury. The tool offsets matched items
against each other, suggests other items for matching, provides a window for free search and
match, and produces consolidated monthly and cumulative cash reconciliation reports.


                                                                                              6
Treasury’s reconciliation procedures state that an agency may not arbitrarily adjust its
Fund Balance with Treasury account, and may do so only after clearly establishing the
causes for any errors and properly correcting those errors. USAID Chief Financial Officer
(CFO) Bulletin 06-1001, Reconciliations with U.S. Treasury, requires USAID to perform
timely monthly reconciliations with Treasury and requires a certification that
reconciliations have been performed in accordance with TFM Volume 1, Part 2-5100.
TFM Volume I, Bulletin No. 2007-07, Suspense “F” Account Discontinuance and Waiver
Policy, states that, effective February 28, 2009, all suspense accounts must have
balances no more than 60 days old for agencies with approved waivers.

In our prior year’s audit, 2 we recommended that USAID CFO intensify its efforts to
reconcile monthly transactions with Treasury and identify, track, and resolve legacy
differences recorded in the suspense accounts and in other appropriation accounts. We
recognize that this will be an ongoing effort, and will continue to monitor USAID’s
progress during future audits. Therefore, we are making the following recommendation:

    Recommendation No 1: We recommend that the Chief Financial Officer
    (a) provide changes in its crosswalk to the Department of Health and Human
    Services in a timely manner to ensure that the Department of Health and Human
    Services charges all third-party transactions to appropriate appropriations; and
    (b) research and resolve all suspense items within the time stipulated by
    Treasury.

Significant Deficiencies
USAID’s Process to Reconcile Loans Receivable Is Not Effective
and Does Not Resolve Differences in a Timely Manner (Repeat
Finding)

During our audit of the Loans Receivable account, we noted that USAID continues to
have large unreconciled differences between amounts recorded in its general ledger
(Phoenix) and amounts recorded in the financial accounting system of its loan services
provider. USAID has contracted with Midland Loan Services, a subsidiary of PNC
Financial Services Group, Inc., to service its loan portfolio and to maintain accurate loan
balances. Midland processes USAID's loan transactions in its Enterprise Loan System
(ELS) and generates a monthly report of loan transactions that is uploaded into Phoenix
through an interface to ensure that the ELS information agrees with the Phoenix
information. This interface is necessary to record accounting information in Phoenix for
the loans that are recorded and maintained in Midland's ELS. Our audit identified
approximately $44 million in USAID’s loan transactions that were not accurately
recorded in the Phoenix accounting system.

Although USAID has made improvements in investigating and resolving these
differences, large unreconciled differences between the two systems still exist. These
differences persist because USAID continues to rely on loan data from borrowers that
have not been reconciled since Midland took over the loan servicing functions in 1999

2
  Report on the Audit of USAID’s Financial Statements for Fiscal Years 2009 and 2008
(November 13, 2009), p. 9. http://www.usaid.gov/oig/public/fy10rpts/0-000-10-001-c.pdf.


                                                                                         7
and also, some transactions recorded in ELS are not captured by Phoenix during the
interface process. In addition, differences result from posting errors due to timing
differences in debt restructurings and inadequate documentation to identify the
transactions that may require adjustments before they are recorded in Phoenix. USAID
recorded an adjustment of $44 million to bring Phoenix into agreement with the ELS.

Generally accepted accounting principles require that the sum of the account balances
in the subsidiary ledger equal the total of each line item in the general ledger at the end
of the accounting period. Statements of Federal Financial Accounting Standards,
Technical Release Number 6, Preparing Estimates for Direct Loan and Loan Guarantee
Subsidies under the Federal Credit Reform Act, requires that the Agency maintain an
audit trail from individual transactions in the subsidiary ledger to the general ledger.

In our prior year’s audit, 3 we recommended that USAID’s CFO develop and implement
procedures to conduct a thorough reconciliation of the outstanding loan balances
maintained in its accounting system with those maintained by Midland and those
reported by borrowers. USAID’s CFO has developed and implemented procedures but
has not yet completed a thorough reconciliation. Because USAID continues to have
large unreconciled differences between its Phoenix accounting system and the Midland
ELS, we are making the following recommendation:

    Recommendation No. 2: We recommend that the Chief Financial Officer
    (a) intensify efforts to reconcile loan balances with Midland’s ELS, (b) ensure that
    all transactions transmitted to Phoenix via the interface are properly posted to
    Phoenix, and (c) complete debt restructuring reconciliations within 90 days after
    Midland records debt restructurings in ELS.

USAID’s Process to Account for and Accurately Report Property,
Plant, and Equipment Is Not Effective
USAID does not maintain an accurate listing of Property, Plant, and Equipment (PP&E),
nor adequate documentation to support PP&E recorded in its general ledger. During our
audit of PP&E we found that USAID does not maintain accurate general ledger account
balances for the PP&E reported in its financial statements. Specifically, our audit
revealed that of 78 items that were tested to determine their value, 41 did not have
adequate documentation to support the value recorded in the general ledger. In
addition, of 73 items that were tested to determine their status, 40 did not have adequate
documentation to demonstrate whether they were in use, disposed of, missing, or
damaged. Also, some PP&E items were assigned to one geographic location but the
records reflected another location while some items could not be located. Additionally,
several items that were previously disposed of were included on USAID’s current
capitalized asset listing. For example, three assets valued at $166,200 were sold or
destroyed but remained on USAID’s PP&E records.

Our audit of USAID’s PP&E account balances also disclosed that the general ledger
account balances were not periodically analyzed and agreed to the PP&E listing. We

3
 Report on the Audit of USAID’s Financial Statements for Fiscal Years 2009 and 2008, p. 9,
November 13, 2009, http://www.usaid.gov/oig/public/fy10rpts/0-000-10-001-c.pdf.



                                                                                             8
also found that USAID lacked procedures to perform and document its annual
reconciliation of the PP&E account balances recorded by its Financial Management
Division with those reported by its Overseas Management Division. These conditions
occurred because USAID does not (1) follow its established policies and procedures to
ensure that complete supporting documentation is maintained for PP&E items recorded
in its general ledger, (2) reconcile its PP&E account balances on an annual basis to
ensure that the related assets accounted for by its Financial Management Division
corresponds to the asset information maintained by its Overseas Management Division,
and (3) review its PP&E listing to ensure that all additions and dispositions are
accounted for accurately and in a timely manner.

OMB Circular A-123, Management’s Responsibility for Internal Controls, dated
December 31, 2004 states that the reliability of financial reporting requires management
to provide the assertion that documentation exist for all transactions and other significant
events and is readily available for examination. Additionally, OMB A-136, Financial
Reporting Requirements, dated September 29, 2010, states that periodic analyses,
reconciliations, or comparisons of data should be included as a part of the regular duties
of financial management offices. Because of the internal control deficiencies noted
above, we are making the following recommendation:

    Recommendation No. 3: We recommend that the Chief Financial Officer develop
    and implement procedures to ensure that (a) adequate supporting documentation
    is maintained for all purchases, transfers, and dispositions of property, plant, and
    equipment; (b) communication between USAID’s Overseas Management
    Division and Financial Management Division is maintained to ensure that all the
    equipment are reconciled annually; and (c) disposed property and equipment are
    removed from its financial records in a timely manner.

Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)

USAID continues to have a large number of intragovernmental transactions that have
not been reconciled. As of September 30, 2009, the U.S. Treasury (Treasury) reported
a net difference of $2.9 billion in intragovernmental transactions between USAID and
other Federal agencies. Of this amount, USAID was required to reconcile $124 million in
accordance with OMB Circular A-136, Financial Reporting Requirements, and
Treasury’s Federal Intragovernmental Transactions Accounting Policies Guide, section
17.1. These differences, which are reported by Treasury each quarter in the Material
Differences/Status of Disposition Certification Report, 4 represent differences identified by
Treasury between USAID’s records and those of its Federal trading partners that exceed
$50 million or the assurance threshold that is determined by Treasury. In its third and
fourth quarter material difference reports, Treasury reported some differences greater
than $50 million totaling approximately $124 million. Although USAID has increased its
efforts to resolve unreconciled amounts, significant differences still exist, including the
$124 million that should have been reconciled with four different Federal agencies.
These differences occurred because USAID’s trading partners recorded the transactions
in different accounting periods or used different accounting methodologies.

4
  The Material Differences/Status Disposition Certification Report allows agencies to identify
differences with trading partners by reciprocal categories that are greater than or equal to a
respective reconciliation assurance level.


                                                                                            9
REPORT ON COMPLIANCE
WITH LAWS AND
REGULATIONS
We have audited the consolidated balance sheets of USAID as of September 30, 2010,
and 2009. We have also audited the consolidated statements of changes in net position,
consolidated statements of net cost, and combined statements of budgetary resources
for the fiscal years ended September 30, 2010, and 2009, and have issued our report
thereon. We conducted the audits in accordance with auditing standards, generally
accepted in the United States, generally accepted Government Auditing Standards
issued by the Comptroller General of the United States, and Office of Management and
Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements.

The management of USAID is responsible for complying with laws and regulations
applicable to USAID. As part of obtaining reasonable assurance about whether USAID’s
financial statements are free of material misstatement, we performed tests of its
compliance with certain provisions of laws and regulations, noncompliance with which
could have a direct and material effect on the determination of financial statement
amounts and with certain other laws and regulations specified in OMB Bulletin 07-04,
including the requirements referred to in the Federal Financial Management
Improvement Act of 1996 (FFMIA). We limited our tests of compliance to these
provisions and did not test compliance with all laws and regulations applicable to USAID.

Our tests did not disclose instances of noncompliance considered to be reportable under
Government Auditing Standards. Our objective was not to provide an opinion on overall
compliance with laws and regulations, and accordingly, we do not express such an
opinion.

OMB Circular A-123
OMB Circular A-123, Management’s Responsibility for Internal Control, implements the
requirements of Federal Managers’ Financial Integrity Act (FMFIA). Appendix A of OMB
Circular A-123 contains an assessment process that management should implement in
order to properly assess and improve internal controls over financial reporting. The
assessment process should provide management with the information needed to
support a separate assertion on the effectiveness of the internal controls over financial
reporting, as a subset of the overall FMFIA report.

In 2010, USAID monitored key business processes and followed up on
recommendations made in prior years. For FY 2010, USAID, in its Management
Assurance Report to the President and Congress, identified and reported one material
weakness concerning a large fund balance difference with the U.S. Department of
Treasury, as well as the following significant deficiencies:




                                                                                      11
EVALUATION OF
MANAGEMENT COMMENTS
We have received USAID’s management comments on the findings and
recommendations included in the draft report.      We have evaluated USAID’s
management comments on the recommendations and have reached management
decisions on all of the recommendations. The following is a summary of USAID’s
management comments and our evaluation of those comments.

USAID management agreed to implement recommendation no. 1, and commented that
the Chief Financial Officer’s (CFO) office accepts the finding and noted that the auditors
acknowledged that progress has been made in reconciliation of current transactions with
the implementation of the fund balance reconciliation tool. USAID management also
commented that the CFO will focus in fiscal year (FY) 2011 on eliminating legacy
differences, correcting the Department of Health and Human Services crosswalk, and
resolving all items recorded in the suspense accounts within 60 days. The target
completion date is September 30, 2011. We have reached a management decision on
this recommendation and will review USAID’s implementation of this recommendation
during our FY 2011 Government Management Reform Act (GMRA) audit.

USAID management agreed to implement recommendation no. 2 and promised to
continue to work with the service provider to investigate and resolve loan balance
differences. USAID management also commented that the CFO will complete new debt
restructuring reconciliations within the recommended 90-day timeframe by training
additional personnel. USAID management further commented that it will take an
estimated 2 years to complete past debt restructuring reconciliations. The target
completion date is June 30, 2013. We have reached a management decision on this
recommendation and will review USAID’s implementation of this recommendation during
our FY 2011 GMRA audit.

USAID management agreed to implement recommendation no. 3 and commented that it
will institute processes to improve the internal control procedures regarding property,
plant, and equipment. The target completion date is June 30, 2011. We have reached a
management decision on this recommendation and will review USAID’s implementation
of this recommendation during our FY 2011 GMRA audit.




                                                                                       13
                                                                                  Appendix I 

                                                                                 Page 1 of 2 



SCOPE AND METHODOLOGY 

USAID management is responsible for (1) preparing the financial statements in
accordance with generally accepted accounting principles; (2) establishing, maintaining,
and assessing internal control to provide reasonable assurance that the broad control
objectives of the Federal Managers Financial Integrity Act (FMFIA) are met; (3) ensuring
that USAID’s financial management systems substantially comply with the requirements
of the Federal Financial Management Improvement Act of 1996 (FFMIA); and (4)
complying with other applicable laws and regulations.

The Office of Inspector General (OIG) is responsible for obtaining reasonable assurance
about whether the financial statements are presented fairly, in all material respects, in
conformity with generally accepted accounting principles. The OIG is also responsible
for: (1) obtaining a sufficient understanding of internal control over financial reporting and
compliance to plan the audit; (2) testing whether USAID’s financial management
systems substantially comply with FFMIA requirements; (3) testing compliance with
selected provisions of laws and regulations that have a direct and material effect on the
financial statements and laws for which Office of Management and Budget’s (OMB) audit
guidance requires testing; and (4) performing limited procedures with respect to certain
other information appearing in the Agency Financial Report.

To fulfill these responsibilities, the OIG:

    •	 Examined, on a test basis, evidence supporting the amounts and disclosures in
       the financial statements;
    •	 Assessed the accounting principles used and significant estimates made by
       management;
    •	 Evaluated the overall presentation of the financial statements;
    •	 Obtained an understanding of internal control related to financial reporting
       (including safeguarding assets) and compliance with laws and regulations,
       (including execution of transactions in accordance with budget authority);
    •	 Tested relevant internal controls over financial reporting and compliance, and
       evaluated the design and operating effectiveness of internal controls;
    •	 Considered the process for evaluating and reporting on internal control and
       financial management systems under FMFIA; and
    •	 Tested USAID’s compliance with FFMIA requirements.

We also tested USAID’s compliance with selected provisions of the following laws and
regulations:

    •	   Anti-Deficiency Act
    •	   Improper Payments Information Act
    •	   Prompt Payment Act
    •	   Debt Collection Improvement Act
    •	   Federal Credit Reform Act
    •	   OMB Circular A-136
    •	   OMB Circular A-123




                                                                                           14
                                                                               Appendix I
                                                                              Page 2 of 2

We did not evaluate all internal controls relevant to operating objectives as broadly
defined by the FMFIA, such as those controls relevant to preparing statistical reports and
ensuring efficient operations. We limited our internal control testing to controls over
financial reporting and compliance. Because of inherent limitations in internal control,
misstatements due to error or fraud, losses, or noncompliance may occur and may not
be detected. We also caution that projecting our evaluation to future periods is subject
to the risk that controls may become inadequate because of changes in conditions, or
that the degree of compliance with controls may deteriorate. In addition, we caution that
our internal control testing may not be sufficient for other purposes.

We did not test compliance with all laws and regulations applicable to USAID. We
limited our tests of compliance to those laws and regulations required by OMB audit
guidance that we deemed applicable to the financial statements for the fiscal years
ended September 30, 2010, and 2009. We caution that noncompliance may occur and
not be detected by these tests, and that such testing may not be sufficient for other
purposes.

In forming our opinion, we considered potential aggregate errors exceeding $330 million
for any individual statement to be material to the presentation of the overall financial
statements.

Federal Financial Management Improvement Act
We assessed whether USAID was substantially compliant with section 803(a) of the
FFMIA, which requires agencies to report whether their financial management systems
substantially comply with (1) Federal financial management systems requirements,
(2) applicable Federal accounting standards, and (3) the United States Government
Standard General Ledger (USSGL) at the transaction level. To perform our review, we
conducted assessments, with contractor support, of USAID’s Phoenix financial
management systems updates, its posting models effectiveness, and its budget module
postings to the general ledger to determine whether the systems substantially complied
with selected mandatory requirements contained in the Financial Systems Integration
Office, formerly known as the Joint Financial Management Improvement Program,
Acquisition/Financial Systems Interface Requirements dated June 2002.

Our review disclosed that USAID implemented a systems upgrade in June 2010
However, this upgrade did not affect USAID’s compliance with FFMIA. In addition, we
requested and obtained a memorandum from the Office of the Chief Financial Officer
certifying that FY 2010 upgrades or changes to the Phoenix accounting system did not
result in USAID being substantially noncompliant with FFMIA.

We also evaluated USAID’s financial transactions that were recorded in Phoenix to
determine if they were compatible with Federal accounting standards and the USSGL at
the transaction level, and we did not observe any exceptions. Therefore, we concluded
that our review found no instances of substantial noncompliance with any of the three
FFMIA section 803(a) requirements.




                                                                                       15
                                                                            Appendix III 

                                                                            Page 1 of 2 



MANAGEMENT COMMENTS



                                                                  November 12, 2010

MEMORANDUM

TO:           AIG, Joseph Farinella

FROM:         M/CFO, David D. Ostermeyer /s/

SUBJECT:      Management Response to Draft Independent Auditor’s Report on
              USAID’s Financial Statements for Fiscal Years 2010 and 2009
              (Report No. 0-000-11-001-C)

Thank you for your draft report on the Audit of USAID’s Financial Statements for Fiscal
Years 2010 and 2009 and for the professionalism and dedication exhibited by your staff
throughout this entire process.

Fiscal Year (FY) 2010 was another significant year for federal financial management at
USAID. We are gratified that the USAID Inspector General will issue unqualified
opinions on all four principal financial statements. The acknowledgments of the Agency’s
improvements in financial systems and processes throughout the report are greatly
appreciated.

Following are our comments and management decisions regarding the findings and
proposed audit recommendations:

Material Weakness: USAID Does Not Reconcile its Fund Balance with Treasury
Account with the U.S. Treasury and Resolve Reconciling Items in a Timely Manner
(Repeat Finding)

Recommendation No 1: We recommend that the Chief Financial Officer (a) provide
changes in its crosswalk to the Department of Health and Human Services in a timely
manner to ensure that the Department of Health and Human Services charges all third-
party transactions to appropriate appropriations; and (b) research and resolve all
suspense items within the time stipulated by Treasury.

Management Decision: We accept the finding and note the auditor’s acknowledgement
that progress has been made in the reconciliation of current transactions with the
implementation of the fund balance reconciliation tool. The CFO will focus on
eliminating legacy differences, correcting the HHS crosswalk, and clearing items from
the suspense accounts within 60 days.


                                                                                      16
                                                                              Appendix III
                                                                              Page 2 of 2


Target completion date: September 30, 2011

Significant Deficiency: USAID’s Process to Reconcile Loans Receivable Is Not
Effective and Does Not Resolve Differences in a Timely Manner (Repeat Finding)

Recommendation: No. 2: We recommend that the Chief Financial Officer (a) intensify
efforts to reconcile loan balances with Midland’s ELS; (b) ensure that all transactions
transmitted to Phoenix via the interface are properly posted to Phoenix; and (c) complete
debt restructuring reconciliations within 90 days after Midland records debt restructurings
in ELS.

Management Decision: We agree to implement the recommendation and will continue
to work with the service provider to investigate and resolve differences. We will
complete new debt restructuring reconciliations within the timeframe described above by
training additional personnel, but it will take an estimated two and a half more years to
complete past debt restructuring reconciliations.
Target completion date: June 30, 2013

Significant Deficiency: USAID’s Process to Account for and Accurately Report
Property, Plant, and Equipment Is Not Effective

Recommendation No. 3: We recommend that the Chief Financial Officer develop and
implement procedures to ensure that: (a) adequate supporting documentation is
maintained for all purchases, transfers, and disposals of property, plant and equipment;
(b) communication between USAID’s Overseas Management Division and Financial
Management Division is maintained to ensure that all the equipment are reconciled
annually; and (c) disposed property and equipment is removed from its financial records
in a timely manner.

Management Decision: We agree to implement the recommendation. We will institute
processes to improve the internal control procedures regarding property, plant and
equipment.

Target completion date: June 30, 2011

Significant Deficiency: Intragovernmental Transactions Remain Unreconciled
(Repeat Finding)

There are no recommendations associated with this significant deficiency. The CFO has
implemented corrective actions related to audit recommendations issued under the
GMRA audit reports for FYs 2005-2009. USAID requires more cooperation from its
trading partners if we are to eliminate differences altogether but we will keep trying to
improve, consistent with other demands on our resources.

In closing, I would like to confirm USAID’s commitment to continual improvement in
financial management. I intend to ensure that all necessary steps are taken to
institutionalize strong financial management performance throughout the Agency. We
will continue the improvements made in the last few years as we work hard to develop
and implement long-term solutions to address the issues cited in your report.



                                                                                        17
                                                                             Appendix III 

                                                                             Page 2 of 2 



STATUS OF PRIOR YEARS
FINDINGS AND
RECOMMENDATIONS
OMB Circular A-50 states that a management decision on audit recommendations shall
be made within a maximum of 6 months after a final report is issued. Corrective action
should proceed as rapidly as possible.

Status of 2009 Findings and Recommendations
Recommendation No. 1: We recommend that USAID’s Chief Financial Officer intensify
efforts to reconcile current monthly transactions with Treasury and identify, track, and
resolve legacy differences recorded in the suspense accounts and in other appropriation
accounts.

Status: The Chief Financial Officer (CFO) noted that USAID will focus in FY 2010 on
eliminating legacy differences caused by transactions made by third-party payment
service providers on USAID’s behalf. Target completion date: September 30, 2011.

Recommendation No. 2: We recommend that USAID Chief Financial Officer develop
and implement procedures to conduct a thorough reconciliation of the outstanding loan
balances maintained in its accounting system with those maintained by Midland and
those reported by the borrowers.

Status: The Chief Financial Officer noted that USAID will make significant progress in
investigating and resolving differences. Target completion date of September 30, 2010
has been achieved.

Recommendation No. 3: We recommend that the Chief Financial Officer rectify the flaw
in the financial accounting system script to ensure that payments made for amounts
accrued are applied to the related contract or task order accruals before quarterly
accruals are recorded against the original contract obligation in the accounting system.

Status: The Chief Financial Officer noted that its contractor for Phoenix, CGI, has begun
to develop a modification to the payment adjustment script that will eliminate this
weakness. He noted that the current plan is to have the enhanced script included with
the Momentum 6.3.1 release in June 2010. Therefore, the FY 2010 Q3 accruals will be
adjusted completely and accurately for all payments made during the accrual cycle.
Target completion was achieved on August 12, 2010.




                                                                                       18
                                                                             Appendix III 

                                                                             Page 2 of 2 


Status of 2008 Findings and Recommendations
Recommendation No. 1:          We recommend that USAID’s Chief Financial Officer
implement a process in accordance with the Supplement to Treasury Financial Manual
Volume 1, Part 2-5100, section V (A), Periodic Review and Evaluation, to perform and
document monthly reconciliation of its Fund Balance with Treasury account with the U.S.
Treasury and to identify, track, and resolve all differences in a timely manner.

Status: The Chief Financial Officer (CFO) noted that USAID will need additional
resources to implement this recommendation. USAID implemented a process that
documents its reconciliations, and identifies and tracks all differences for the
headquarters paying location until they are resolved. USAID has made progress in this
area but large differences still remain. USAID has established the Cash Reconciliation
Team to strengthen USAID’s reconciliation process and the Data Integrity Team to
investigate and resolve the cash balance differences that have arisen from past
transactions. Target completion date of September 30, 2010, has been achieved.

Recommendation No. 2: We recommend that USAID’s Office of the Chief Financial
Officer implement procedures to reconcile loans receivable balances in Phoenix with the
loans receivable balances in Midland’s Enterprise Loan System and to investigate and
resolve differences in a timely manner.

Status: USAID has made progress in investigating and resolving differences but large
differences remain. Target completion date of September 30, 2009, has been achieved.

Status of 2005 Findings and Recommendations

In FY 2005 audit report, the OIG recommended that USAID’s Chief Financial Officer
directs the Financial Management Office to conduct quarterly intragovernmental
reconciliations of activity and balances with its trading partners in accordance with the
requirements of the Federal Intragovernmental Transactions Accounting Policies Guide,
issued by the Department of Treasury’s Financial Management Service.

Status: USAID has implemented this recommendation but significant differences still
remain. However, USAID is continuously researching intragovernmental activity and
developing new tools in order to improve its reconciliation process and eliminate the
differences.




                                                                                       19
                                                                                                           Appendix IV




Financial statements


                                                        COnSOlIDAteD BAlAnCe SHeet
                                                        As of September 30, 2010 and 2009 (In Thousands)
                                                                                                           2010               2009
 ASSetS:
    intragovernmental:
        Fund Balance with treasury (notes 2 and 15)                                                    $   27,221,485     $   21,437,709
        accounts receivable (note 3)                                                                              220                220
        other assets (note 4)                                                                                  67,653             12,014
    total intragovernmental                                                                                27,289,358         21,449,943

    cash and other monetary assets (note 5)                                                                   265,375            322,851
    accounts receivable, net (note 3)                                                                         121,101             84,654
    direct loans and loan Guarantees, net (note 6)                                                          3,472,065          3,762,680
    inventory and related Property, net (note 7)                                                               16,394             22,711
    General Property, Plant, and equipment, net (notes 8 and 9)                                               117,056            117,794
    advances (note 4)                                                                                         789,121            377,803
    total Assets                                                                                       $ 32,070,470       $ 26,138,436

 lIABIlItIeS:
    intragovernmental:
        accounts Payable (notes 10 and 15)                                                             $       37,773     $        2,552
        debt (note 11)                                                                                        478,280            477,381
        liability for capital transfers to the General Fund of the treasury (note 11)                       3,202,384          3,468,201
        other liabilities (note 12)                                                                           667,713             67,735
    total intragovernmental                                                                                 4,386,150          4,015,869

    accounts Payable (note 10)                                                                              2,075,047          1,834,079
    loan Guarantee liability (note 6)                                                                       2,265,591          2,283,273
    Federal employee and Veteran’s Benefits (note 13)                                                          26,035             26,885
    other liabilities (notes 10, 12, and 13)                                                                  435,789            507,155
    total liabilities                                                                                      9,188,612          8,667,261

    commitments and contingencies (note 14)                                                                        –              1,310

 net POSItIOn:
   unexpended appropriations                                                                               21,108,712         16,464,124
   cumulative results of operations                                                                         1,773,146          1,005,741
    total net Position (note 15)                                                                       $ 22,881,858       $ 17,469,865


 total liabilities and net Position                                                                    $ 32,070,470       $ 26,138,436

The accompanying notes are an integral part of these statements.




                                                                  USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                77
                                                                                                                                                20
                                          COnSOlIDAteD StAteMent OF net COSt
                                                 For the Years Ended September 30, 2010 and 2009
                                                                   (In Thousands)
 OBJeCtIVeS                                                                                        2010             2009
 Peace and Security:
     Gross costs                                                                              $    1,079,389    $    983,269
     less: earned revenue                                                                             (6,895)          (3,631)
     net Program costs                                                                             1,072,494         979,638

 Governing Justly and Democratically:
     Gross costs                                                                                   1,792,493        1,759,735
     less: earned revenue                                                                            (24,286)          (5,969)
     net Program costs                                                                             1,768,207        1,753,766

 Investing in People:
     Gross costs                                                                                   3,162,339        3,466,346
     less: earned revenue                                                                          (313,925)        (408,333)
     net Program costs                                                                             2,848,414        3,058,013

 economic Growth:
     Gross costs                                                                                   2,913,573        4,418,757
     less: earned revenue                                                                          (203,394)        (794,252)
     net Program costs                                                                             2,710,179        3,624,505

 Humanitarian Assistance:
     Gross costs                                                                                   1,637,038        1,460,372
     less: earned revenue                                                                             (7,951)          (4,718)
     net Program costs                                                                             1,629,087        1,455,654

 Operating Unit Management:
     Gross costs                                                                                    381,361          145,198
     less: earned revenue                                                                             (3,446)          (1,023)
     net Program costs                                                                              377,915          144,175
 net Cost of Operations (notes 16 and 17)                                                     $ 10,406,296      $ 11,015,751

The accompanying notes are an integral part of these statements.




78                      USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                21
                               COnSOlIDAteD StAteMent OF CHAnGeS In net POSItIOn
                                                     For the Years Ended September 30, 2010 and 2009
                                                                       (In Thousands)
                                                                                                        2010                  2009
                                                                                               Consolidated total     Consolidated total

 Cumulative results of Operations:
    Beginning Balances                                                                             $    1,005,741        $    1,002,391
    Beginning Balances, as adjusted                                                                     1,005,741             1,002,391

 Budgetary Financing Sources:
        appropriations used                                                                            11,080,790            10,796,496
        donations and Forfeitures of cash and cash equivalents                                             83,066                76,897
        transfers-in/out without reimbursement                                                                 10               132,445
 Other Financing Sources (non-exchange):
    imputed Financing                                                                                       9,835                13,263
    total Financing sources                                                                            11,173,701            11,019,101
    net cost of operations                                                                             (10,406,296)          (11,015,751)
    net change                                                                                            767,405                 3,350

 Cumulative results of Operations:                                                                      1,773,146             1,005,741

 Unexpended Appropriations:
   Beginning Balance                                                                                   16,464,124            14,982,084
    Beginning Balance, as adjusted                                                                     16,464,124            14,982,084

 Budgetary Financing Sources:
        appropriations received                                                                        15,786,352            12,187,744
        appropriations transferred in/out                                                                  94,900               121,792
        other adjustments                                                                                (155,874)               (31,000)
        appropriations used                                                                            (11,080,790)          (10,796,496)
        total Budgetary Financing sources                                                               4,644,588             1,482,040
    total unexpended appropriations                                                                    21,108,712            16,464,124

 net Position                                                                                      $ 22,881,858          $ 17,469,865


The accompanying notes are an integral part of these statements.




                                                                 USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                  79   22
                                      COMBIneD StAteMent OF BUDGetAry reSOUrCeS
                                                     For the Years Ended September 30, 2010 and 2009
                                                                       (In Thousands)
                                                                                          2010                                 2009
                                                                                           non-Budgetary                        non-Budgetary
                                                                         Budgetary         Credit reform     Budgetary          Credit reform
Budgetary resources:
   unobligated Balance, Brought Forward, october 1                      $    5,360,402      $    1,643,447   $    3,908,007      $    1,616,689
   recoveries of Prior Year unpaid obligations                                 676,857                   –          391,919                  28
   Budget authority:
      appropriations                                                        15,855,309                  –        12,263,857                     1
      Borrowing authority (note 11)                                                  –                900                 –                    13
      spending authority from offsetting collections:
          earned:
              collected                                                       706,108             800,209         1,020,840             216,823
              change in receivables from Federal sources                         (174)                  –            (2,703)                  –
          change in unfilled customer orders:
              advance received                                                460,853                   –                 –                     –
              Without advance from Federal sources                             (2,633)                  –             8,373                   (35)
        subtotal                                                            17,019,463            801,109        13,290,367             216,802
     nonexpenditure transfers, net,anticipated and actual                     (109,472)               (54)          154,587                   –
     Permanently not available                                                (434,727)                 –          (616,512)                  –
total Budgetary resources                                               $ 22,512,523        $ 2,444,502      $ 17,128,368        $ 1,833,519

Status of Budgetary resources:
   obligations incurred (note 18):
       direct                                                           $ 15,431,921        $      59,921    $ 11,323,163        $      190,089
       reimbursable                                                          183,041                    –         444,804                   (18)
            subtotal                                                        15,614,962             59,921        11,767,967             190,071
     unobligated Balance:
        apportioned (note 2)                                                 6,013,474              30,939        4,148,492               3,514
        subtotal                                                             6,013,474              30,939        4,148,492               3,514
     unobligated Balance not available (note 2)                                884,087           2,353,642        1,211,909           1,639,934
total Status of Budgetary resources (note 18)                           $ 22,512,523        $ 2,444,502      $ 17,128,368        $ 1,833,519


                                                                                                                                 (continued on next page)




80                    USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                            23
                              COMBIneD StAteMent OF BUDGetAry reSOUrCeS (continued)
                                                       For the Years Ended September 30, 2010 and 2009
                                                                         (In Thousands)

                                                                                          2010                               2009
                                                                                           non-Budgetary                      non-Budgetary
                                                                           Budgetary       Credit reform     Budgetary        Credit reform

 Change in Obligated Balance:
   obligated Balance, net

      unpaid obligations, Brought Forward, october 1
                     $ 14,422,096      $        (640)   $ 13,725,579      $       (695)
      less: uncollected customer Payments from 

          Federal sources, Brought Forward, october 1                          (27,714)               35          (22,044)                 –
        total unpaid obligated Balance, net (note 18)                       14,394,382               (605)     13,703,535               (695)
    obligations incurred net (+/-)                                          15,614,962             59,921      11,767,967            190,071
    less: Gross outlays                                                    (11,435,590)           (62,033)    (10,679,531)          (189,988)
    less: recoveries of Prior Year unpaid obligations,actual                  (676,857)                 –        (391,919)               (28)
    change in uncollected customer Payments from Federal sources (+/-)           2,806                  –          (5,670)                35
    obligated Balance, net, end of Period
        unpaid obligations                                                  17,924,611             (2,751)     14,422,096               (640)
        less: uncollected customer Payments from Federal sources               (24,908)                34         (27,714)                35
        total, unpaid obligated Balance, net, end of Period               $ 17,899,703      $      (2,717)     14,394,382               (605)

 net Outlays:
   Gross outlays
                                                           11,435,590             62,033      10,679,531            189,988
   less: offsetting receipts
                                               (1,166,959)          (800,209)     (1,020,840)          (216,823)
   less: distributed offsetting receipts (note 18)
                             71,742                  –        (182,729)                 –
 net Outlays                                                              $10,340,373       $ (738,176)      $ 9,475,962       $    (26,835)

The accompanying notes are an integral part of these statements.




                                                               USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                        81
                                                                                                                                                     24
notes to the
Financial statements

nOte 1. SUMMAry OF SIGnIFICAnt ACCOUntInG POlICIeS

A. BASIS OF PreSentAtIOn                     American recovery and                         activities in furtherance of the peaceful
                                             reinvestment Act                              resolution of conflicts, to include conflicts
The accompanying principal financial                                                       in Nagorno-Karabagh.
statements report USAID’s financial          Recovery Act funds are for immediate infor­
position and results of operations.          mation technology security and upgrades to    This account provides funds for a program
They have been prepared using USAID’s        support mission-critical operations. Due to   of assistance to the independent states that
books and records in accordance with         Agency IT priorities and to maximize job      emerged from the former Soviet Union.
Agency accounting policies, the most         creation with the Recovery Act funds,         These funds support the U.S. foreign
significant of which are summarized in       USAID determined that the funding should      policy goals of consolidating improved
this note. The statements are presented in   be dedicated to the Global Acquisition and    U.S. security; building a lasting partner­
accordance with the guidance and require­    Assistance System (GLAAS) project.            ship with the New Independent States; and
ments of the Office of Management and                                                      providing access to each other’s markets,
Budget (OMB) Circular A-136, Financial                                                     resources, and expertise. Funds appropri­
                                             Programs
Reporting Requirements.                                                                    ated in prior years under the headings
                                             The statements present the financial          “Independent States of the Former Soviet
USAID accounting policies follow                                                           Union” and “Assistance for Eastern Europe
                                             activity of various programs and accounts
generally accepted accounting principles                                                   and the Baltic States” have been made
                                             managed by USAID. The programs
(GAAP) for the Federal government, as                                                      available under the heading of Assistance
                                             include Assistance for Europe, Eurasia, and
recommended by the Federal Accounting                                                      for Europe, Eurasia, and Central Asia since
                                             Central Asia; Civilian Stabilization
Standards Advisory Board (FASAB).                                                          FY 2009.
                                             Initiative; Capital Investment Fund;
The FASAB has been recognized by the
                                             Economic Support Fund; Development
American Institute of Certified Public
                                             Assistance; International Disaster Assis­
Accountants (AICPA) as the official                                                        Civilian Stabilization Initiative
                                             tance; Global Health and Child Survival;
accounting standard setting authority for
                                             Complex Crisis Fund; Transition Initia­       This fund provides support for the
the Federal government. These standards
                                             tives; and Direct and Guaranteed Loan         necessary expenses needed to establish,
have been agreed to, and published by the
                                             Programs. This classification is consistent   support, maintain, mobilize, and deploy
Director of the OMB, the Secretary of the
                                             with the Budget of the United States.         a civilian response corps in coordination
Treasury, and the Comptroller General.
                                                                                           with the USAID. This fund is also used
                                             Assistance for Europe, Eurasia,
                                                                                           for related reconstruction and stabiliza­
B. rePOrtInG entIty                                                                        tion assistance to prevent or respond to
                                             and Central Asia
                                                                                           conflict or civil strife in foreign countries
Established in 1961 by President John F.     Funds appropriated under this heading         or regions, or to enable transition from
Kennedy, USAID is the independent U.S.       are considered to be economic assistance      such strife.
Government agency that provides economic     under the Foreign Assistance Act of 1961.
development and humanitarian assistance      These funds are available for the Southern
to advance United States economic and        Caucasus region and may be used for
political interests overseas.                confidence-building measures and other




82                USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                           24
Capital Investment Fund                          prevention and mitigation; providing            Direct and Guaranteed Loans
                                                 emergency commodities and services
This fund provides for the necessary             for immediate healthcare and nutrition.         •	 Direct Loan Program
expenses for overseas construction and           Additionally, this fund supports the              These loans are authorized under
related costs, and for the procurement and       capability to provide timely emergency            the Foreign Assistance Act, various
enhancement of information technology            response to disasters worldwide.                  predecessor agency programs, and
and related capital investments. Specifically,                                                     other foreign assistance legislation.
this fund provides assistance in supporting                                                        Direct Loans are issued in both U.S.
the GLAAS system.                                Global Health and Child Survival                  dollars and the currency of the borrower.
                                                                                                   Foreign currency loans made “with
                                                 This fund provides economic resources to
                                                                                                   maintenance of value” place the risk of
Economic Support Fund                            developing countries to support programs
                                                                                                   currency devaluation on the borrower,
                                                 to improve infant and child nutrition,
The Economic Support Fund (ESF)                                                                    and are recorded in equivalent U.S.
                                                 with the aim of reducing infant and child
supports U. S. foreign policy objectives by                                                        dollars. Loans made “without mainte­
                                                 mortality rates; to reduce HIV transmis­
providing economic assistance to allies and                                                        nance of value” place the risk of devalu­
                                                 sion and the impact of the HIV/AIDS
countries in transition to democracy.                                                              ation on the U.S. Government, and
                                                 pandemic in developing countries; to
Programs funded through this account                                                               are recorded in the foreign currency of
                                                 reduce the threat of infectious diseases
promote stability and U.S. security                                                                the borrower.
                                                 of major public health importance such
interests in strategic regions of the world.     as polio and malaria; and to expand             •	 Urban and Environmental
                                                 access to quality basic education for girls        Program
Development Assistance
                                                 and women.
                                                                                                   The Urban and Environmental (UE)
                                                                                                   Program, formerly the Housing
This program provides economic resources
                                                 Complex Crisis Fund                               Guarantee Program, extends guaran­
to developing countries with the aim of
                                                                                                   ties to U.S. private investors who make
bringing the benefits of development to          This fund provides for necessary expenses         loans to developing countries to assist
the poor. The program promotes broad-            to carry out the provisions of the Foreign        them in formulating and executing
based, self-sustaining economic growth,          Assistance Act of 1961 to enable USAID            sound housing and community devel­
opportunity, and supports initiatives            to support programs and activities to             opment policies that meet the needs of
intended to stabilize population growth,         prevent or respond to emerging or unfore­         lower income groups.
protect the environment and foster               seen complex crises overseas.
increased democratic participation in                                                            •	 Micro and Small Enterprise
developing countries. The program is                                                                Development Program
concentrated in those areas in which the         Transition Initiatives
                                                                                                   The Micro and Small Enterprise Devel­
United States has special expertise and                                                            opment (MSED) Program supports
which promise the greatest opportunity           This fund provides for humanitarian
                                                 programs that provide post-conflict               private sector activities in developing
for the poor to better their lives.                                                                countries by providing direct loans and
                                                 assistance to victims of both natural
                                                 and man-made disasters. This program              loan guarantees to support local micro
International Disaster Assistance                supports U.S. foreign policy objectives by        and small enterprises. Although the
                                                 helping local partners advance peace and          MSED program is still active, the bulk
Funds for the International Disaster             democracy in priority countries in crisis.        of USAID’s new loan guarantee activity
Assistance Program provide relief, reha­         Seizing critical windows of opportunity, the      is handled through the Development
bilitation, and reconstruction assistance        Office of Transition Initiatives (OTI) works      Credit Authority (DCA) Program.
to foreign countries struck by disasters         on the ground to provide fast, flexible,
such as famine, floods, hurricanes and                                                           •	 Israeli Loan Guarantee Program
                                                 short-term assistance targeted at key
earthquakes. The program also provides           political transition and stabilization needs.     Congress authorized the Israeli Loan
assistance in disaster preparedness, and                                                           Guarantee Program in Section 226 of
                                                                                                   the Foreign Assistance Act to support




                                                       USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                         83
                                                                                                                                               25
     the costs for immigrants resettling         •	 Loan Guarantees to Egypt                     construction that the annual appropriation
     to Israel from the former Soviet               Program                                      for Operating Expenses does not allow.
     Union, Ethiopia, and other countries.          The Loan Guarantees to Egypt
     Under this program, the U.S. Govern­                                                        Deposit funds are established for
                                                    Program was established under
     ment guaranteed the repayment of up                                                         (1) amounts received for which USAID
                                                    the Emergency Wartime Supple­
     to $10 billion in loans from commer­                                                        is acting as a fiscal agent or custodian,
                                                    mental Appropriations Act of 2003.
     cial sources. Borrowing was completed                                                       (2) unidentified remittances, (3) monies
                                                    Under this program, the U.S. Govern­
     under the program during FY 1999,                                                           withheld from payments for goods or
                                                    ment was authorized to issue an
     with approximately $9.2 billion being                                                       services received, and (4) monies held
                                                    amount not to exceed $2 billion in
     guaranteed, of which $7.8 billion is                                                        waiting for distribution on the basis of
                                                    loan guarantees to Egypt during the
     currently outstanding. Guarantees                                                           legal determination.
                                                    period beginning March 1, 2003 and
     were made by USAID on behalf of the            ending September 30, 2005. New loan
     U.S Government.                                guarantees totaling $1.25 billion were       C. BASIS OF ACCOUntInG
                                                    issued in fiscal year 2005 before the
     In FY 2003, Congress authorized a
                                                    expiration of the program.                   Transactions are recorded on both an
     second Israeli Loan Guarantee Program
                                                                                                 accrual and budgetary basis. Under the
     of up to $9.0 billion to support Israel’s
                                                                                                 accrual basis, revenues are recognized
     comprehensive economic program              Fund types                                      when earned and expenses are recognized
     to overcome economic difficulties
                                                 The statements include the accounts of all      when a liability is incurred, without regard
     and create conditions for higher and
                                                 funds under USAID’s control. Most of            to receipt or payment of cash. Budgetary
     sustainable growth. $4.1 billion has
                                                 the fund accounts relate to general fund        accounting facilitates compliance with
     been borrowed under this program,
                                                 appropriations. USAID also has a special        legal constraints on, and controls of, the
     of which the entire $4.1 billion is
                                                 fund, revolving funds, trust funds, deposit     use of federal funds. The accompanying
     currently outstanding.
                                                 funds, a capital investment fund, receipt       Balance Sheet, Statement of Net Cost,
•	 Development Credit Authority                  account, and budget clearing accounts.          and Statement of Changes in Net Position
                                                                                                 have been prepared on an accrual basis.
     The first obligations for USAID’s Devel­    General fund appropriations and the             The Statement of Budgetary Resources
     opment Credit Authority (DCA) were          Special fund are used to record financial       has been prepared in accordance with
     made in FY 1999. The DCA allows             transactions under Congressional appro­         budgetary accounting rules.
     missions and other offices to use loans     priations or other authorization to spend
     and loan guarantees to achieve their        general revenue.
     development objectives when it can be                                                       D. BUDGetS AnD BUDGetAry
     shown that (1) the project generates        Revolving funds are established by law to       ACCOUntInG
     enough revenue to cover the debt service    finance a continuing cycle of operations,
     including USAID fees, (2) there is at       with receipts derived from such opera­          The components of USAID’s budgetary
     least 50% risk-sharing with a private-      tions usually available in their entirety for   resources include current budgetary
     sector institution, and (3) the DCA         use by the fund without further action by       authority (that is, appropriations and
     guarantee addresses a financial market      Congress.                                       borrowing authority) and unobligated
     failure in-country and does not “crowd­                                                     balances remaining from multi-year and
     out” private sector lending. The DCA        Trust funds are credited with receipts          no-year budget authority received in prior
     can be used in any sector and by any        generated by the terms of the trust             years. Budget authority is the authoriza­
     USAID operating unit whose project          agreement or statute. At the point of           tion provided by law to enter into financial
     meets the DCA criteria. DCA projects        collection, these receipts are unavailable,     obligations that result in immediate or
     are approved by the Agency Credit           depending upon statutory requirements,          future outlays of federal funds. Budgetary
     Review Board and the Chief Financial        or available immediately.                       resources also include reimbursement and
     Officer.                                                                                    other income (that is, spending authority
                                                 The capital investment fund contains            from offsetting collections credited to an
                                                 no-year funds to provide the Agency             appropriation of fund account) and adjust­
                                                 with greater flexibility to manage invest­      ments (that is, recoveries of prior year
                                                 ments in technology systems and facility        obligations).




84                   USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                26
Unobligated balances associated with           rescheduled loans, penalty interest on         H. ACCOUntS reCeIVABle
appropriations that expire at the end of the   delinquent balances, permanent indefinite
fiscal year remain available for obligation    borrowing authority from U.S. Treasury,        Accounts receivable consist of amounts due
adjustments, but not new obligations, until    proceeds from the sale of overseas real        mainly from foreign governments but also
that account is canceled. When accounts        property acquired by USAID, and                from other Federal agencies and private
are canceled five years after they expire,     advances from foreign governments and          organizations. USAID regards amounts
amounts are not available for obligations      international organizations.                   due from other Federal agencies as 100
or expenditure for any purpose and are                                                        percent collectible. The Agency establishes
returned to Treasury.                          Revenues are recognized as financing           an allowance for uncollectible accounts
                                               sources to the extent that they are payable    receivable for non-loan or revenue gener­
The “Consolidated Appropriations Act,          to USAID from other agencies, other            ating sources based on a historical analysis
2010” signed into law as P.L. 111-117          governments and the public in exchange         of collectability.
provides to USAID extended authority           for goods and services rendered to others.
to obligate funds. USAID’s appropria­          Imputed revenues are reported in the
tions have consistently provided essentially   financial statements to offset the imputed     I. lOAnS reCeIVABle
similar authority. It is commonly known        costs.
                                                                                              Loans are accounted for as receivables after
as “511/517” authority, a name that is
                                                                                              funds have been disbursed. For loans
based on references to the previous appro­
                                               F. FUnD BAlAnCe wItH                           obligated before October 1, 1991 (the
priations acts. Under this authority funds
                                               tHe U.S. treASUry                              pre-credit reform period), loan principal,
shall remain available for obligation for an
                                                                                              interest, and penalties receivable are reduced
extended period if such funds are initially
                                               Cash receipts and disbursements are            by an allowance for estimated uncollectible
obligated within their initial period of
                                               processed by the U.S. Treasury. The fund       amounts. The allowance is estimated based
availability.
                                               balances with Treasury are primarily           on a net present value method prescribed by
                                               appropriated funds that are available to       OMB that takes into account country risk
e. reVenUeS AnD OtHer                          pay current liabilities and finance autho­     and projected cash flows.
FInAnCInG SOUrCeS                              rized purchase commitments, but they also      For loans obligated on or after October 1,
                                               include revolving, deposit, and trust funds.   1991, the loans receivable are reduced by an
USAID receives the majority of its
                                                                                              allowance equal to the net present value of
funding through congressional appropria­
                                               G. FOreIGn CUrrenCy                            the cost to the United States Government
tions —annual, multi-year, and no-year
                                                                                              of making the loan. This cost, known as
appropriations — that may be used              The Direct Loan Program has foreign            “subsidy”, takes into account all cash
within statutory limits. Appropriations        currency funds, which are used to disburse     inflows and outflows associated with the
are recognized as revenues at the time         loans in certain countries. Those balances     loan, including the interest rate differential
the related program or administrative          are reported at the U.S. dollar equiva­        between the loans and Treasury borrowing,
expenses are incurred. Appropriations          lents using the exchange rates prescribed      the estimated delinquencies and defaults net
expended for capitalized property and          by the U.S. Treasury. A gain or loss on        of recoveries, and offsets from fees and
equipment are not recognized as expenses.      translation is recognized for the change       other estimated cash flows. This allowance
In addition to funds warranted directly to     in valuation of foreign currencies at          is re-estimated when necessary and changes
USAID, the agency also receives alloca­        year-end. Additionally, some USAID             reflected in the operating statement.
tion transfers from the U.S. Department        host countries contribute funds for the
of Agriculture (USDA) Commodity                overhead operation of the host mission         Loans have been made in both U.S.
Credit Corporation (CCC), the Executive        and the execution of USAID programs.           dollars and foreign currencies. Loans
Office of the President, the Department        These funds are held in trust and reported     extended in foreign currencies can be with
of State, and Millennium Challenge             in U.S. dollar equivalents on the balance      or without “Maintenance of Value”
Corporation (MCC).                             sheet and statement of net costs.              (MOV). Those with MOV place the
                                                                                              currency exchange risk upon the
Additional financing sources for USAID’s
                                                                                              borrowing government; those without
various credit programs and trust funds
                                                                                              MOV place the risk on USAID. Foreign
include amounts obtained through collec­
                                                                                              currency exchange gain or loss is recog­
tion of guaranty fees, interest income on




                                                     USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                           85
                                                                                                                                               27
nized on those loans extended without         also has birth control supplies stored at        However, no liability can be paid by the
MOV, and reflected in the net credit          several sites.                                   Agency without an appropriation or
programs receivable balance.                                                                   borrowing authority. Liabilities for which
                                              USAID’s office supplies are deemed items         an appropriation has not been enacted
Credit program receivables also include       held for use because they are tangible           are therefore classified as liabilities not
origination and annual fees on outstanding    personal property to be consumed in              covered by budgetary resources (unfunded
guarantees, interest on rescheduled loans     normal operations. Agency supplies held          liabilities), and there is no certainty
and late charges. Claims receivables          in reserve for future use are not readily        that the appropriations will be enacted.
(subrogated and rescheduled) are due from     available in the market, or there is more        Also, these liabilities can be abrogated
foreign governments as a result of defaults   than a remote chance that the supplies           by the U.S. Government, acting in its
for pre-1992 guaranteed loans. Receiv­        will be needed, but not in the normal            sovereign capacity.
ables are stated net of an allowance for      course of operations. Their valuation is
uncollectible accounts; determined using      based on cost and they are not considered
an OMB approved net present value             “held for sale.” USAID has no supplies           n. lIABIlItIeS FOr lOAn
default methodology.                          categorizable as excess, obsolete, or unser­     GUArAnteeS
                                              viceable operating materials and supplies.
While estimates of uncollectible loans                                                         The Credit Reform Act (CRA) of 1990,
and interest are made using methods                                                            which became effective on October 1,
prescribed by OMB, the final determina­       l. PrOPerty, PlAnt AnD                           1991, has significantly changed the
tion as to whether a loan is collectible is   eqUIPMent                                        manner in which USAID’s loan programs
also affected by actions of other U.S.                                                         finance their activities. The main purpose
Government agencies.                          USAID capitalizes all property, plant and        of CRA was to more accurately measure
                                              equipment that have an acquisition cost of       the cost of Federal credit programs and to
                                              $25,000 or greater and a useful life of two      place the cost of such programs on a
J. ADVAnCeS                                   years or more. Acquisitions that do not          budgetary basis equivalent to other Federal
                                              meet these criteria are recorded as operating    spending. Consequently, commencing in
Funds disbursed in advance of incurred        expenses. Assets are capitalized at historical   fiscal 1992, USAID cannot make new
expenditures are recorded as advances.        cost, depending on when the asset was put        loans or guarantees without an appropria­
Most advances consist of funds disbursed      into production and depreciated using the        tion available to fund the cost of making
under letters of credit to contractors and    straight-line method (mid-year and mid-          the loan or guarantee. This cost is known
grantees. The advances are liquidated and     quarter). Real property is depreciated over      as “subsidy.”
recorded as expenses upon receipt of expen­   20 years, nonexpendable personal property
diture reports from the recipients.           is depreciated over three to five years, and     For USAID’s loan guarantee programs,
                                              capital leases are depreciated according to      when guarantee commitments are made,
                                              the terms of the lease. The Agency operates      an obligation for subsidy cost is recorded
K. InVentOry AnD relAteD
                                              land, buildings, and equipment that are          in the program account. This cost is
PrOPerty                                      provided by the General Services Adminis­        based on the net present value of the
                                              tration. Rent for this property is expensed.     estimated net cash outflows to be paid by
USAID’s inventory and related property
                                              Internal use software that has development       the Program as a result of the loan
is comprised of operating materials and
                                              costs of $300,000 or greater is capital­         guarantees, except for administrative
supplies. Some operating materials
                                              ized. Deferred maintenance amounts are           costs, less the net present value of all cash
and supplies are held for use and
                                              immaterial with respect to the financial         inflows to be generated from those
consist mainly of computer paper and
                                              statements.                                      guarantees. When the loans are disbursed,
other expendable office supplies not
in the hands of the user. USAID also                                                           the subsidy cost is disbursed from the
has materials and supplies in reserve                                                          program account to a financing account.
                                              M. lIABIlItIeS
for foreign disaster assistance stored
                                                                                               For loan guarantees made before the CRA
at strategic sites around the world.          Liabilities represent the amount of monies       (pre-1992), the liability for loan guaran­
These consist of tents, vehicles, and         or other resources that are likely to be         tees represents an unfunded liability.
water purification units. The Agency          paid by USAID as the result of transac­          Footnote 6 presents the unfunded
                                              tions or events that have already occurred.      amounts separate from the post-1991




86                 USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                               28
liabilities. The amount of unfunded            USAID recognizes a current-period               •	 Cumulative results of operations are
liabilities also represents a future funding   expense for the future cost of post retire­        also part of net position. This account
requirement for USAID. The liability is        ment health benefits and life insurance for        reflects the net difference between
calculated using a reserve methodology         its employees while they are still working.        (i) expenses and losses and (ii) financing
that is similar to OMB prescribed method       USAID accounts for and reports this                sources, including appropriations,
for post-1991 loan guarantees.                 expense in its financial statements in a           revenues and gains, since the inception
                                               manner similar to that used for pensions,          of the activity.
                                               with the exception that employees and
O. AnnUAl, SICK, AnD                           USAID do not make contributions to
OtHer leAVe                                    fund these future benefits.                     S. nOn-entIty ASSetS

Annual leave is accrued as it is earned and    Federal employee benefit costs paid             Non-entity fund balances are amounts in
the accrual is reduced as leave is taken.      by OPM and imputed by USAID are                 Deposit Fund accounts. These include
Each year, the balance in the accrued          reported on the Statement of Net Cost.          such items as: funds received from outside
annual leave account is adjusted to reflect                                                    sources where the government acts as
current pay rates. To the extent that                                                          fiscal agent, monies the government has
current or prior year appropriations are       q. COMMItMentS AnD                              withheld awaiting distribution based on
not available to fund annual leave earned      COntInGenCIeS                                   legal determination, and unidentified
but not taken, funding will be obtained                                                        remittances credited as suspense items
from future financing sources. Sick leave      A contingency is an existing condition,         outside the budget. For USAID, non­
and other types of leave are expensed          situation or set of circumstances involving     entity assets are minimal in amount as
as taken.                                      uncertainty as to possible gain or loss to      reflected in Note 3, composed solely of
                                               USAID. The uncertainty will ultimately          accounts receivables, net of allowances.
                                               be resolved when one or more future
P. retIreMent PlAnS AnD                        events occur or fail to occur. For pending,
POSt eMPlOyMent BeneFItS                       threatened or potential litigation, a           t. AGenCy COStS
                                               liability is recognized when a past trans­
USAID recognizes its share of the cost                                                         USAID costs of operations are comprised
                                               action or event has occurred, a future
of providing future pension benefits to                                                        of program and operating expenses.
                                               outflow or other sacrifice of resources
eligible employees over the period of                                                          USAID/Washington program expenses by
                                               is likely, and the related future outflow
time the employees provide the related                                                         objective are obtained directly from
                                               or sacrifice of resources is measurable.
services. The pension expense recog­                                                           Phoenix, the Agency general ledger.
                                               For other litigations, a contingent liability
nized in the financial statements equals                                                       Mission related program expenses by
                                               is recognized when similar events occur
the current service cost for USAID                                                             objective are obtained from Phoenix.
                                               except that the future outflow or other
employees for the accounting period less                                                       A cost allocation model is used to
                                               sacrifice of resources is more likely than
the amount contributed by the employees.                                                       distribute operating expenses, including
                                               not. Footnote 14 identifies commitments
The measurement of the service cost                                                            Management Bureau, Global Develop­
                                               and contingency liabilities.
requires the use of an actuarial cost                                                          ment Alliance, Trust Funds and Support
method and assumptions. The Office of                                                          Offices costs to specific goals. Expenses
Personnel Management (OPM) adminis­            r. net POSItIOn                                 related to Credit Reform and Revolving
ters these benefits and provides the factors                                                   Funds are directly applied to specific
that USAID applies to report the cost.         Net position is the residual difference         agency goals based on their objectives.
The excess of the pension expense over         between assets and liabilities. It is
the amount contributed by USAID and            composed of unexpended appropriations
                                               and cumulative results of operations.           U. PArent/CHIlD rePOrtInG
employees represents the amount being
financed directly through the Civil Service    •	 Unexpended appropriations are the            USAID is a party to allocation transfers
Retirement and Disability Fund admin­             portion of the appropriations repre­         with other federal agencies as both a
istered by OPM. This cost is considered           sented by undelivered orders and             transferring (parent) entity and receiving
imputed cost to USAID.                            unobligated balances.                        (child) entity. Allocation transfers are legal
                                                                                               delegations by one department of its ability
                                                                                               to obligate budget authority and outlay




                                                     USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                             87
                                                                                                                                                29
funds to another department. A separate                 guidance, child transfer activities are to be      •	 Department of State
fund account (allocation account) is                    included and parent transfer activities are to
created in the U.S. Treasury as a subset of             be excluded in trial balances. Exceptions to       •	 Department of the Treasury
the parent fund account for tracking and                this general rule affecting USAID include
                                                                                                           •	 Nuclear Regulatory Commission.
reporting purposes. All allocation transfers            the Executive Office of the President, for
of balances are credited to this account, and           whom USAID is the child in the alloca­             USAID receives allocation transfers as
subsequent obligations and outlays incurred             tion transfer but, per OMB guidance, will          the child from:
by the child entity are charged to this allo­           report all activity relative to these allocation
cation account as they execute the delegated            transfers in USAID’s financial statements.         •	 Department of State
activity on behalf of the parent entity.                In addition to these funds, USAID allocates
                                                                                                           •	 Executive Office of the President
Generally, all financial activity related               funds as the parent to:
to these allocation transfers (e.g. budget                                                                 •	 Millennium Challenge Corporation
authority, obligations, outlays) is reported            •	 Department of Energy
in the financial statements of the parent                                                                  •	 United States Department of Agricul­
                                                        •	 Department of Justice
entity, from which the underlying legisla­                                                                    ture, Commodity Credit Corporation.
tive authority, appropriations, and budget              •	 Department of Labor
apportionments are derived. Per OMB



nOte 2. FUnD BAlAnCe wItH treASUry
Fund Balance with Treasury as of September 30, 2010 and 2009 consisted of the following:                   Unobligated balances become available
                                                                                                           when apportioned by the OMB for obli­
                         FUnD BAlAnCe wItH treASUry                                                        gation in the current fiscal year. Obligated
                                            (In Thousands)                                                 and other balances not yet disbursed (net)
                                                                                                           include balances for non-budgetary funds
 Fund Balance                                                       2010                   2009
                                                                                                           and unfilled customer orders without
 trust Funds                                                   $      83,825          $      50,238        advances. The unobligated and obligated
 revolving Funds                                                    5,245,751              4,328,092       balances are reflected on the Combined
 appropriated Funds                                                21,936,849             16,927,098       Statement of Budgetary Resources.
 other Funds                                                          (44,940)              132,281        The total available unobligated balance
 total                                                         $ 27,221,485           $ 21,437,709         includes expired funds which are available
                                                                                                           for upward adjustments, however they
 Status of Fund Balance with treasury                               2010                   2009            are not available to incur new obligations.
 unobligated Balance                                                                                       In the Combined Statement of Budgetary
     available                                                 $ 6,044,413            $ 4,152,006          Resources the expired fund balance is
     unavailable                                                    3,237,729              2,851,843
                                                                                                           included in Unobligated Balances Not
                                                                                                           Available.
 obligated and other Balances not Yet disbursed (net)              17,939,343             14,433,860
 total                                                         $ 27,221,485           $ 21,437,709         The FY 2010 Fund Balance with Treasury
                                                                                                           in the “Other” category is reported as
                                                                                                           $44.9M abnormal (credit balance).
                                                                                                           This abnormal balance is due to transac­
                                                                                                           tions posted into Suspense accounts that
                                                                                                           were not applied to the applicable appro­
                                                                                                           priations as of the end of the accounting
                                                                                                           period. Once all transactions are cleared
                                                                                                           from the Suspense accounts, this category
                                                                                                           will have a net zero balance.




88                     USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                          30
nOte 3. ACCOUntS reCeIVABle, net
The primary components of USAID’s accounts receivable as of September 30, 2010 and 2009 are as follows:

                                                          ACCOUntS reCeIVABle, net
                                                                         (In Thousands)

                                                                    receivable                Allowance            receivable net        receivable net
                                                                      Gross                   Accounts                  2010                  2009
 intragovernmental
     appropriation reimbursements from Federal agencies             $       587               $        n/a            $      587            $       761
     accounts receivable from Federal agencies                            73,489                       n/a                 73,489               616,309
     less intra-agency receivables                                       (73,856)                      n/a                (73,856)              (616,850)
 total intragovernmental account receivables                                220                        n/a                   220                    220
 accounts receivable to the Public                                       136,882                    (15,781)              121,101                84,654
 total receivables                                                  $    137,102              $     (15,781)          $   121,321           $    84,874



Entity intragovernmental accounts                      All other entity accounts receivable consist            of collectability. Accounts receivable from
receivable consist of amounts due from                 of amounts managed by missions or                       missions are collected and recorded to the
other U.S. Government agencies.                        USAID/Washington. These receivables                     respective appropriation.
No allowance accounts have been                        consist of overdue advances, unre­
established for the intragovernmental                  covered advances, and audit findings.                   Interest receivable is calculated separately,
accounts receivable, which are considered              The allowance for these receivables is                  and there is no interest included in the
to be 100% collectible.                                calculated based on a historical analysis               accounts receivable listed above.




nOte 4. OtHer ASSetS
Advances as of September 30, 2010 and 2009 consisted of the following:

                                                                                                               FY 2010 advances to Host Country
                                               ADVAnCeS
                                                                                                               Governments and Institutions represent
                                               (In Thousands)
                                                                                                               amounts advanced by USAID missions
                                                                         2010                 2009             to host country governments and other
 Intragovernmental                                                                                             in-country organizations, such as educa­
     advances to Federal agencies                                    $     67,653         $       12,014       tional institutions and voluntary organiza­
 total intragovernmental                                                   67,653                 12,014
                                                                                                               tions. Advances, Other consist primarily
                                                                                                               of amounts advanced for living quarters,
     advances to contractors/Grantees                                     555,135             310,343
                                                                                                               travel, and home service. Advances to
     advances to host country Governments and institutions                231,411                 59,136
                                                                                                               Contractors/Grantees are amounts that
     advances, other                                                        2,575                  8,324       USAID pays to them to cover their
 total with the Public                                                    789,121             377,803          immediate cash needs related to program
 total other assets                                                  $    856,774         $   389,817          implementation until they submit expense
                                                                                                               reports to USAID and USAID records
                                                                                                               those expenses.




                                                                USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                   89
                                                                                                                                                                 31
nOte 5. CASH AnD OtHer MOnetAry ASSetS
Cash and Other Monetary Assets as of September 30, 2010 and 2009 are as follows:

                                                  CASH AnD OtHer MOnetAry ASSetS
                                                                        (In Thousands)
 Cash and Other Monetary Assets                                                                                         2010                2009
     imprest Fund-headquarters                                                                                      $          5       $             5
     ue and micro and small enterprise Fund cash w/Fiscal agent                                                                50                  50
     Foreign currencies                                                                                                 265,320             322,796
 total cash and other monetary assets                                                                               $    265,375       $     322,851


USAID has imprest funds in various                      provided to USAID by the Department            Foreign Currencies are related to Foreign
overseas locations. These funds are                     of State was $5 thousand in FY 2010 and        Currency Trust Funds and this totaled
provided by the Department of State                     FY 2009. These imprest funds are not           $265.3 million in FY 2010 and $322.8
overseas U.S. Disbursing Officers to                    included in USAID’s Consolidated Balance       million in FY 2009. USAID does
which USAID is liable for any shortages.                Sheet.                                         not have any non-entity cash or other
The cumulative balance of imprest funds                                                                monetary assets.


nOte 6. DIreCt lOAn AnD lOAn GUArAnteeS, net
USAID operates the following loan and/or                guarantees resulting from obligations made     annual basis to adjust for changes in risk
loan guarantee programs:                                prior to 1992 are reported as a liability.     and interest rate assumptions. Direct loans
                                                                                                       are reported net of an allowance for this
•	 Direct Loan Program (Direct Loan)                    The Credit Reform Act of 1990 prescribes       subsidy cost (allowance for subsidy). The
                                                        an alternative method of accounting for        subsidy costs associated with loan guaran­
•	 Urban and Environmental Program (UE)                 direct loans and guarantees resulting from     tees are reported as loan guarantee liability.
•	 Micro and Small Enterprise Develop­                  obligations made after 1991. Subsidy cost,
   ment Program (MSED)                                  which is the net present value of the cash     An analysis of loans receivable, loan guar­
                                                        flows (i.e. interest rates, interest supple­   antees, liability for loan guarantees, and the
•	 Israel Loan Guarantee Program                        ments, estimated defaults, fees, and other     nature and amounts of the subsidy costs
   (Israel Loan)                                        cash flows) associated with direct loans       associated with the loans and loan guaran­
                                                        and guarantees, is required by the Act to      tees are provided in the following sections.
•	 Development Credit Authority Program                 be recognized as an expense in the year
   (DCA)                                                in which the direct loan or guarantee is       The following net loan receivable amounts
                                                        disbursed. Subsidy cost is calculated by       are not the same as the proceeds that
•	 Egypt Loan Guarantee Program                                                                        USAID would expect to receive from selling
                                                        agency program offices prior to obligation
Direct loans resulting from obligations                 using a model prescribed by the Office of      its loans. Actual proceeds may be higher or
made prior to 1992 are reported net of                  Management and Budget (OMB). Subsidy           lower depending on the borrower and the
allowance for estimated uncollectible loans.            relating to existing loans and guarantees is   status of the loan.
Estimated losses from defaults on loan                  generally required to be reestimated on an

                                                SUMMAry OF lOAnS reCeIVABleS, net
                                                                        (In Thousands)
                                                                                                                 2010                      2009
 net direct loans obligated Prior to 1992 (allowance for loss method)                                         $ 3,007,169            $ 3,314,440
 net direct loans obligated after 1991 (Present Value method)                                                     255,287                  288,912
 defaulted Guaranteed loans from Pre-1992 Guarantees (allowance for loss method)                                  209,609                  159,328
 total loans receivable, net as reported on the Balance sheet                                                 $ 3,472,065            $ 3,762,680



90                    USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                         32
DIreCt lOAnS

                                                     DIreCt lOAnS
                                                       (In Thousands)
                                                  loans                                                    Value of Assets
                                                receivables              Interest      Allowance for      related to Direct
loan Programs                                     Gross                 receivable      loan losses          loans, net

Direct loans Obligated Prior to 1992 (Allowance for loss Method) as of September 30, 2010:

  direct loans                                   $ 3,654,136            $   321,079      $ (968,046)        $ 3,007,169

  msed                                                   29                     32              (61)                  –

  total                                          $ 3,654,165            $   321,111      $ (968,107)        $ 3,007,169


Direct loans Obligated Prior to 1992 (Allowance for loss Method) as of September 30, 2009:
  direct loans                                   $ 3,962,336            $   260,642      $ (908,538)        $ 3,314,440
  msed                                                   29                       –             (29)                  –
  total                                          $ 3,962,365            $   260,642      $ (908,567)        $ 3,314,440

                                                  loans                                 Allowance for      Value of Assets
                                                receivables              Interest       Subsidy Cost      related to Direct
loan Programs                                     Gross                 receivable     (Present Value)       loans, net

Direct loans Obligated After 1991 as of September 30, 2010:
  direct loans                                   $   985,163            $    13,518      $ (798,927)        $   199,754
  ue - subrogated claims                              38,580                  5,124          12,012              55,716
  msed                                                  150                    (150)           (183)               (183)
  total                                          $ 1,023,893            $    18,492      $ (787,098)        $   255,287


Direct loans Obligated After 1991 as of September 30, 2009:
  direct loans                                   $ 1,027,918            $    12,732      $ (800,470)        $   240,179
  ue - subrogated claims                              40,974                  2,461           5,480              48,915
  msed                                                  150                       –            (333)               (183)
  total                                          $ 1,069,042            $    15,193      $ (795,323)        $   288,911



                              tOtAl AMOUnt OF DIreCt lOAnS DISBUrSeD
                                                       (In Thousands)
Direct loan Programs                                                                          2010                2009
  direct loans                                                                              $ 4,639,299         $ 4,991,805
  ue - subrogated claims                                                                        38,580              42,000
  msed                                                                                             179                 179
  total                                                                                     $ 4,678,058         $ 5,033,984




                                              USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                       91
                                                                                                                                   33
                         SCHeDUle FOr reCOnCIlInG SUBSIDy COSt AllOwAnCe BAlAnCeS
                                          (POSt-1991 DIreCt lOAnS)
                                                                       (In Thousands)
                                                                          2010                                                      2009
                                                       Direct      Ue - Sub.                                   Direct      Ue - Sub.
                                                       loan         Claims         MSeD          total         loan         Claims       MSeD         total
Beginning Balance, changes, and ending Balance
Beginning Balance of the subsidy cost allowance       $ 800,470    $ (5,480)       $    333     $ 795,323     $ 861,084    $       –     $   357     $ 861,441
add: subsidy expense for direct loans disbursed
during the reporting Years by component:
     (a) interest rate differential costs                      –          –               –            –              –            –           –            –
     (B) default costs (net of recoveries)                     –          –               –            –              –            –           –            –
     (c) Fees and other collections                            –          –               –            –              –            –           –            –
     (d) other subsidy costs                                   –          –               –            –              –            –           –            –
total of the above subsidy expense components                  –          –               –            –              –            –           –            –
adjustments:
     (a) loan modifications                                    –          –               –            –              –            –           –            –
     (B) Fees received                                         –          –               –            –              –            –           –            –
     (c) Foreclosed Property acquired                          –          –               –            –              –            –           –            –
     (d) loans Written off                                     –          –               –            –              –            –           –            –
     (e) subsidy allowance amortization                 (21,896)          –               –      (21,896)      (169,266)           –           –     (169,266)
     (F) other                                           20,353      (6,532)           (150)      13,671        108,652        (5,480)       (24)     103,148
ending Balance of the subsidy cost allowance Before   $ 798,927    $(12,012)       $    183     $ 787,098     $ 800,470    $ (5,480)     $   333     $ 795,323
reestimates
add or subtract subsidy reestimates by component:
     (a) interest rate reestimate                              –          –               –            –              –            –           –            –
     (B) technical/default reestimate                          –          –               –            –              –            –           –            –
total of the above reestimate components                       –          –               –            –              –            –           –            –
ending Balance of the subsidy cost allowance          $ 798,927    $(12,012)       $    183     $ 787,098     $ 800,470    $ (5,480)     $   333     $ 795,323




                                                      DeFAUlteD GUArAnteeD lOAnS
                                                                       (In Thousands)
                                                    Defaulted                                                                     Value of Assets related
                                                   Guaranteed                                               Allowance                  to Defaulted
                                                 loans receivable,              Interest                    For loan                Guaranteed loans
loan Guarantee Programs                               Gross                    receivable                    losses                   receivable, net

Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss Method): 2010
ue                                                 $ 235,268                   $       84,719               $ (110,378)                  $ 209,609
total                                              $ 235,268                   $       84,719               $ (110,378)                  $ 209,609


Defaulted Guaranteed loans from Pre-1992 Guarantees (Allowance for loss Method): 2009
ue                                                 $ 234,772                   $       57,300               $ (132,744)                  $ 159,328
total                                              $ 234,772                   $       57,300               $ (132,744)                  $ 159,328




92                       USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                                 34
DeFAUlteD GUArAnteeD lOAnS FrOM POSt-1991 GUArAnteeS

In 2010, the UE Program experienced $3.8 million in defaults on payments.

In 2009, the UE Program experienced $3.7 million in defaults on payments.


GUArAnteeD lOAnS OUtStAnDInG

                                       GUArAnteeD lOAnS OUtStAnDInG
                                                         (In Thousands)
                                                                              Outstanding              Amount of
                                                                                Principal,             Outstanding
                                                                            Guaranteed loans,           Principal
 loan Guarantee Programs                                                       Face Value              Guaranteed

 Guaranteed loans Outstanding (2010):
 ue                                                                            $     909,509           $      909,509
 msed                                                                                 14,760                    7,380
 israel                                                                            11,928,719               11,928,719
 dca                                                                                 243,313                  102,399
 egypt                                                                              1,250,000                1,250,000
 total                                                                         $ 14,346,301            $ 14,198,007


 Guaranteed loans Outstanding (2009):
 ue                                                                            $ 1,048,525             $ 1,048,525
 msed                                                                                 16,996                    8,498
 israel                                                                            12,220,958               12,220,958
 dca                                                                                 234,065                   96,382
 egypt                                                                              1,250,000                1,250,000
 total                                                                         $ 14,770,544            $ 14,624,363


 new Guaranteed loans Disbursed (2010):
 dca                                                                           $      37,676           $       18,838
 total                                                                         $      37,676           $       18,838


 new Guaranteed loans Disbursed (2009):
 dca                                                                           $      40,006            $      18,730
 total                                                                         $      40,006            $      18,730




                                                 USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION               93
                                                                                                                              35
                                       lIABIlIty FOr lOAn GUArAnteeS
                                                          (In Thousands)
                                                     liabilities for losses          liabilities for
                                                         on Pre-1992               loan Guarantees                    total
                                                         Guarantees,                 for Post-1991                  liabilities
                                                      estimated Future                Guarantees,                   for loan
           loan Guarantee Programs                      Default Claims              Present Value                  Guarantees

liability for loan Guarantees (estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2010:
ue                                                         $   64,869                  $    137,074                $    201,943
msed                                                                –                          (649)                         (649)
israel                                                              –                      1,856,214                   1,856,214
dca                                                                 –                        15,035                       15,035
egypt                                                               –                       193,048                     193,048
total                                                      $   64,869                  $ 2,200,722                 $ 2,265,591



liability for loan Guarantees (estimated Future Default Claims for pre-1992 guarantees) as of September 30, 2009:
ue                                                         $   90,793                  $    154,795                $    245,588
msed                                                                –                           693                          693
israel                                                              –                      1,824,893                   1,824,893
dca                                                                 –                        34,071                       34,071
egypt                                                               –                       178,028                     178,028
total                                                      $   90,793                  $ 2,192,480                 $ 2,283,273




SUBSIDy exPenSe FOr lOAn GUArAnteeS By PrOGrAM AnD COMPOnent

             SUBSIDy exPenSe FOr lOAn GUArAnteeS By PrOGrAM AnD COMPOnent
                                                          (In Thousands)
                                   Interest                                Fees and Other
 loan Guarantee Programs         Supplements             Defaults            Collections                   Other             total

Subsidy expense for new loan Guarantees (2010):
dca                               $       –          $     1,728             $     –                   $       –         $       1,728
total                             $       –          $     1,728             $     –                   $       –         $       1,728



Subsidy expense for new loan Guarantees (2009):
dca                               $       –          $     3,571             $     –                   $       –         $       3,571
total                             $       –          $     3,571             $     –                   $       –         $       3,571

                                                                                                                        (continued on next page)




94              USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                   36
          SUBSIDy exPenSe FOr lOAn GUArAnteeS By PrOGrAM AnD COMPOnent (continued)
                                                        (In Thousands)
                                                      total              Interest rate           technical            total
loan Guarantee Programs                            Modifications          reestimates           reestimates        reestimates
Modifications and reestimates (2010):
  ue                                                $           –         $         –           $            –      $              –
  israel                                                        –                   –                32,812                32,812
  egypt                                                         –                   –                 5,737                 5,737
  total                                             $           –         $         –           $    38,549         $      38,549


Modifications and reestimates (2009):
  ue                                                $           –         $         –           $     5,256         $       5,256
  israel                                                        –                   –               282,969              282,969
  egypt                                                         –                   –                        –                     –
  total                                             $           –         $         –           $   288,225         $    288,225




                                tOtAl lOAn GUArAntee SUBSIDy exPenSe
                                                     (In Thousands)
loan Guarantee Programs                                                                             2010                 2009
   dca                                                                                          $    1,728         $        626
   ue                                                                                                   –                  5,256
   msed                                                                                                 –                     –
   israel                                                                                           32,812              282,969
   egypt                                                                                             5,737                    –
   total                                                                                        $   40,277         $ 288,851




SUBSIDy rAteS FOr lOAn GUArAnteeS By PrOGrAM AnD COMPOnent:

        BUDGet SUBSIDy rAteS FOr lOAn GUArAnteeS FOr tHe CUrrent yeAr’S COHOrtS
                                                          (Percent)
                                                                       Fees and
                                  Interest                              Other
                                Supplements                           Collections
loan Guarantee Programs             (%)         Defaults (%)              (%)           Other (%)                total (%)

   dca                                  –           4.76%                     –             –                      4.76%




                                              USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                95
                                                                                                                                            37
                       SCHeDUle FOr reCOnCIlInG lOAn GUArAntee lIABIlIty BAlAnCeS
                                                                     (In Thousands)
                   (Post-1991 loan Guarantees)                              DCA             MSeD          Ue         Israel       egypt        total
                                                                    2010
Beginning Balance, changes, and ending Balance
Beginning Balance of the loan Guarantee liability                          $ 34,071     $      693     $ 154,794    $ 1,824,892 $ 178,029    $2,192,479
add: subsidy expense for Guaranteed loans disbursed during the
    reporting Years by component:
    (a) interest supplement costs                                                 –              –             –              –         –             –
    (B) default costs (net of recoveries)                                         –              –             –              –         –             –
    (c) Fees and other collections                                                –              –             –              –         –             –
    (d) other subsidy costs                                                   1,728              –             –              –         –         1,728
total of the above subsidy expense components                                 1,728              –             –              –         –        1,728
adjustments:                                                                                                                                         –
    (a) loan Guarantee modifications                                               –              –            –             –          –            –
    (B) Fees received                                                          1,618              3        1,379             –          –        3,000
    (c) interest supplements Paid                                                  –              –            –             –          –            –
    (d) Foreclosed Property and loans acquired                                     –              –            –             –          –            –
    (e) claim Payments to lenders                                                  –              –       (2,169)            –          –       (2,169)
    (F) interest accumulation on the liability Balance                             –              –        6,124       115,791      7,637      129,552
    (G) other                                                                (13,884)        (1,345)     (12,460)            –          –      (27,689)
ending Balance of the loan Guarantee liability Before reestimates            23,533           (649)      147,668     1,940,683    185,666     2,296,901
add or subtract subsidy reestimates by component:
   (a) interest rate reestimate                                                    –             –             –              –         –             –
   (B) technical/default reestimate                                           (8,498)            –       (10,594)      (84,469)     7,382       (96,179)
total of the above reestimate components                                      (8,498)            –       (10,594)      (84,469)     7,382       (96,179)
ending Balance of the loan Guarantee liability                             $ 15,035     $     (649)    $ 137,074    $ 1,856,214 $ 193,048    $2,200,722


                                                                    2009
Beginning Balance, changes, and ending Balance
Beginning Balance of the loan Guarantee liability                          $ 25,972     $      412     $ 138,058    $ 1,160,451 $ 184,237    $1,509,130
add: subsidy expense for Guaranteed loans disbursed during the
    reporting Years by component:
    (a) interest supplement costs                                                 –              –             –              –         –             –
    (B) default costs (net of recoveries)                                         –              –             –              –         –             –
    (c) Fees and other collections                                                –              –             –              –         –             –
    (d) other subsidy costs                                                   3,571              –             –              –         –         3,571
total of the above subsidy expense components                                 3,571              –             –              –         –         3,571
adjustments:
    (a) loan Guarantee modifications                                              –              –             –             –          –            –
    (B) Fees received                                                         1,424              7         1,926             –          –        3,357
    (c) interest supplements Paid                                                 –              –             –             –          –            –
    (d) Foreclosed Property and loans acquired                                    –              –             –             –          –            –
    (e) claim Payments to lenders                                              (637)             –        (3,719)            –          –       (4,356)
    (F) interest accumulation on the liability Balance                            –              –         6,303        72,412      7,904       86,619
    (G) other                                                                 3,741            274        18,589             –          –       22,604
ending Balance of the loan Guarantee liability Before reestimates            34,071            693       161,157     1,232,863    192,141     1,620,925
add or subtract subsidy reestimates by component:
   (a) interest rate reestimate                                                    –             –             –             –          –            –
   (B) technical/default reestimate                                                –             –        (6,363)      592,029    (14,112)     571,554
total of the above reestimate components                                          –              –        (6,363)       592,029   (14,112)      571,554
ending Balance of the loan Guarantee liability                             $ 34,071     $      693     $ 154,794    $ 1,824,892 $ 178,029    $2,192,479


96                     USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION

                                                                                                                                                           38
                                                     ADMInIStrAtIVe exPenSe
                                                                  (In Thousands)
 loan Programs                                                                                               2010                 2009
    dca                                                                                                  $   10,519           $   10,632
    total                                                                                                $   10,519           $   10,632



OtHer InFOrMAtIOn                                    Programs Appropriations Act, owing           3. Reestimate amounts are subject to
                                                     $403.7 million that is more than                approval by the Office of Management
1. Allowance for Loss for Liquidating                one year delinquent. Outstanding                and Budget (OMB), and any adjust-
   account (pre-Credit Reform Act)                   direct loans receivable for countries           ments, if necessary, will be made in
   receivables have been calculated in               in violation of Section 620q totaled            Fiscal Year 2011.
   accordance with OMB guidance using                $15.3 million. Outstanding direct
   a present value method which assigns              loans receivable for countries in
   risk ratings to receivables based upon            violation of the Brooke Amendment
   the country of debtor. Nine countries             totaled $375.1 million.
   are in violation of Section 620q of the
   Foreign Assistance Act (FAA), owing             2. The MSED Liquidating Account
   $17.4 million that is more than six                general ledger has a loan receivable
   months delinquent. Seven countries are             balance of $29 thousand. This includes
   in violation of the Brooke-Alexander               a loan pending closure. This loan
   Amendment to the Foreign Opera­                    is being carried at 100% bad debt
   tions Export Financing and Related                 allowance.




nOte 7. InVentOry AnD relAteD PrOPerty, net
USAID’s Inventory and Related Property, Net is comprised of Operating Materials and Supplies. Operating Materials and Supplies as
of September 30, 2010 and 2009 are as follows:

                                                 InVentOry AnD relAteD PrOPerty
                                                                  (In Thousands)
                                                                                                             2010                 2009
 Items Held for Use
    office supplies                                                                                      $    5,117           $    4,565
 Items Held in reserve for Future Use
    disaster assistance materials and supplies                                                                3,300               11,473
    Birth control supplies                                                                                    7,977                6,673
 total inventory and related Property                                                                    $   16,394           $   22,711



Operating Materials and Supplies are               valuation is based on historical acquisition   tions on their use. Inventory costing less
considered tangible properties that                costs that do not exceed capitalization        than $25,000 is expensed as incurred.
are consumed in the normal course                  criteria of $25,000. There are no items
of business and not held for sale. The             obsolete or unserviceable, and no restric­




                                                         USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                         97
                                                                                                                                                39
nOte 8. GenerAl PrOPerty, PlAnt AnD eqUIPMent, net
The components of Property, Plant & Equipment (PP&E) as of September 30, 2010 and 2009 are as follows:

                                       GenerAl PrOPerty, PlAnt AnD eqUIPMent, net
                                                                 (In Thousands)
                                                                                                             net Book         net Book
                                                                                        Accumulated           Value            Value
                                                       Useful life           Cost       Depreciation           2010             2009
 the components of PP&e as of September 30, 2010 are as follows:
 Classes of Fixed Assets
     equipment                                          3 to 5 years    $    95,172     $   (83,600)     $     11,572     $     16,759
     Buildings, improvements, and renovations            20 years           103,112         (49,756)           53,356           48,465
     land and land rights                                  n/a                9,178           n/a               9,178            8,800
     assets under capital lease (note 9)                                     13,442          (9,665)            3,777            4,473
     construction in Progress                              n/a                    –               –                –                –
     internal use software                              3 to 5 years         98,597         (59,424)           39,173           39,296
 total PP&e                                                             $   319,501     $ (202,445)      $    117,056     $    117,794



The threshold for capitalizing or amor­         Equipment consists primarily of electric       missions. USAID does not separately
tizing assets is $25,000. Assets purchased      generators, Automatic Data Processing          report the cost of the building and the
prior to FY 2003 are depreciated using          (ADP) hardware, vehicles and copiers           land on which the building resides.
the straight line depreciation method.          located at the overseas field missions.
Assets purchased during FY 2003 and             Note 9 discusses USAID leases.                 Land consists of property owned by
beyond are depreciated using the mid-                                                          USAID in foreign countries. Land is
quarter convention depreciation method.         Buildings, Improvements, and Renova­           generally procured with the intent of
Depreciable assets are assumed to have          tions; in addition to Land and Land            constructing buildings.
no remaining salvage value. There are           Rights include USAID owned office
currently no restrictions on PP&E assets.       buildings and residences at foreign
                                                missions, including the land on which
USAID PP&E includes assets located in           these structures reside. These structures
Washington, D.C. offices and overseas           are used and maintained by the field
field missions.




98                    USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                         40
nOte 9. leASeS
As of September 30, 2010 Leases consisted of the following:

                                                                       leASeS
                                                                     (In Thousands)
 entity as lessee
    Capital leases:                                                                                          2010              2009
    summary of assets under capital lease:
       Buildings                                                                                         $    13,442       $    13,442
       accumulated depreciation                                                                               (9,665)           (8,969)
    net assest under capital leases                                                                      $     3,777       $     4,473

 Description of lease(s) Arrangements. Capital leases consist of rental ageements entered into by missions for warehouses,
 parking lots, residential space, and office buildings. These leases are one year or more in duration.
    Future Payments Due:                                                                                     2010              2009
    Fiscal year                                                                                         Future Costs       Future Costs
       2010                                                                                              $         –       $     3,015
       2011                                                                                                      390               390
       2012                                                                                                        –                 –
       2013                                                                                                    2,375             2,375
       2014                                                                                                    2,375             2,375
       2015                                                                                                    1,170             1,170
       after 5 Years                                                                                               –                 –
    net capital lease liability (note 12)                                                                $     6,310       $     9,325
    lease liabilities covered by Budgetary resources                                                     $     6,310       $     9,325


    Operating leases:
    Future Payments Due:                                                                                    2010               2009
    Fiscal year                                                                                         Future Costs       Future Costs
       2010                                                                                              $         –       $    66,972
       2011                                                                                                   82,567            61,840
       2012                                                                                                   78,876            56,527
       2013                                                                                                   67,254            54,887
       2014                                                                                                   63,146            60,132
       2015                                                                                                   67,823                 –
       after 5 Years                                                                                         167,993           194,632
    total Future lease Payments                                                                          $   527,659       $   494,991



Operating lease payments total $528                    802,417 sq. feet and with expiration dates   FY 2010 and FY 2009 amounted to $48.2
million in future lease payments, $258                 of FY 2013, FY 2015, and FY 2020.            million and $44 million, respectively.
million is for the USAID headquar-                     The lessor, General Services Administar­
ters in Washington, D.C. The current                   tion (GSA), charges commercial rates for
lease agreements are for approximately                 USAID’s occupancy. Lease payments for




                                                             USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                    99
                                                                                                                                               41
42
43
nOte 12. OtHer lIABIlItIeS
As of September 30, 2010 and 2009 Other Liabilities consisted of the following:

                                       OtHer lIABIlItIeS
                                              (In Thousands)
                                                                   2010            2009
 Intragovernmental
      iPac suspense                                            $    (10,050)   $     (2,411)
      unfunded Feca liability                                       10,005           9,871
      credit Program                                               178,302          35,476
      custodial liability                                            7,424          10,252
      other                                                        482,032          14,548
 total intragovernmental                                       $   667,713     $    67,735

 accrued Funded Payroll and leave (note 13)                         41,615          23,240
 unfunded leave (note 10)                                           44,666          80,049
 advances From others                                                2,485           1,690
 deferred credits                                                   19,071          16,160
 Foreign currency trust Fund                                       266,465         323,942
 capital lease liability (note 9)                                    6,310           9,325
 custodial liability                                                      –               –
 other liabilities                                                  55,177          52,749
 total liabilities With the Public                             $   435,789     $   507,155

 total other liabilities                                       $ 1,103,502     $   574,890



All liabilities are current. Intragovernmental Liabilities represent amounts due to other
federal agencies. All remaining Other Liabilities are liabilities to non-federal entities.

Unfunded leave components are shown in Note 10.




102                         USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                               44
nOte 13. FeDerAl eMPlOyeeS AnD VeterAn’S BeneFItS

The provisions for workers’ compensa­               The Federal Employees’ Compensation              ment two fiscal years later from the Federal
tion benefits payable, as of September 30,          Act (FECA) provides income and medical           agencies employing the claimants.
2010 and 2009 are indicated in the table            cost protection to covered federal civilian
below. These liabilities are included in            employees injured on the job and to              For FY 2010, USAID’s total FECA
the Intragovernmental Other Liabilities             beneficiaries of employees whose deaths are      liability was $67.6 million, comprised of
line item on the Consolidated Balance               attributable to job-related injury or disease.   unpaid FECA billings for $26.0 million
Sheet and are not covered by budgetary              The FECA program is administered by the          and estimated future FECA costs of
resources.                                          Department of Labor (DOL). DOL initially         $41.6 million.
                                                    pays valid FECA claims for all Federal
                                                                                                     The actuarial estimate for the FECA
                                                    government agencies and seeks reimburse-
                                                                                                     unfunded liability is determined by
                                                                                                     the DOL using a method that utilizes
   ACCrUeD UnFUnDeD wOrKerS’ COMPenSAtIOn BeneFItS                                                   historical benefit payment patterns.
                                            (In Thousands)                                           The projected annual benefit payments
                                                                   2010              2009            are discounted to present value using
                                                                                                     economic assumptions for 10-year
 liabilities not Covered by Budgetary resources
                                                                                                     Treasury notes and bonds and the
    Future Workers’ compensation Benefits                      $    26,035       $      26,885
                                                                                                     amount is further adjusted for inflation.
    accrued Funded Payroll and leave (note 12)                      41,615              23,240
                                                                                                     Currently, the projected number of years
    total accrued unfunded Workers’ compensation Benefits      $    67,650       $      50,125       of benefit payments is 37 years.



nOte 14. COMMItMentS AnD COntInGenCIeS
USAID is involved in certain claims, suits,         •	 The third case is a companion case.              the Agency the contractor identified
and complaints that have been filed or are             A contractor seeks compensation for              $1.5 million in damages.
pending. These matters are in the ordinary             efforts and expenses it claims to have
course of the Agency’s operations and are              incurred under a terminated host              •	 USAID has been notified of a sixth case
not expected to have a material adverse                country contract with the Honduran               with a potential loss of $5.0 million.
effect on the Agency’s financial operations.           government. The estimated loss is                Further case details are not currently
                                                       $1.8 million.                                    available.
As of September 30, 2010 a total of nine
cases were pending.                                 •	 The fourth case involves a contractor         The three remaining cases have a remote
                                                       who entered into a fixed price contract       likelihood of an unfavorable outcome.
Six cases have been designated as reason­              for the construction of a road but
ably possible, a total of $19.5 million:                                                             During FY 2010 there were two
                                                       contends that it was not told of
                                                                                                     settlements.
                                                       differing site conditions, in particular,
•	 The first case is a basis claim that USAID
                                                       swampy areas, and therefore, the              •	 The first case was settled in the second
   has willfully violated the Fair Labor
                                                       Agency owes it an equitable adjust­              quarter and was originally identified as
   Standards Act by failing to compen­
                                                       ment. The estimated loss is $2.0                 a probable loss of $1.3 million. This
   sate employees for overtime worked.
                                                       million.                                         case involves a contractor who seeks
   The estimated loss is $7 million.
                                                                                                        costs that were incurred by one of
                                                    •	 The fifth case is a claim for damages
•	 The second case is a contract claim                                                                  its subcontractors; however USAID
                                                       suffered allegedly as a result of USAID-
   that USAID wrongfully withheld                                                                       disputes those costs as unsubstantiated.
                                                       caused delay in relation to the delivery
   payment for invoices submitted under                                                                 The settlement was for $51,000.
                                                       and off-loading of grain at the Port
   “Hurricane Mitch” host-country,
                                                       of Djibouti. Filings to date with             •	 The second case was settled in the
   contract in Honduras. The estimated
                                                       the Board of Contract Appeals have               second quarter and was originally
   loss is $2.2 million.
                                                       not quantified damages; however, in              identified as a reasonably possible
                                                       pre-litigation correspondence with


                                                             USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                           103
                                                                                                                                                 45
  loss of $1.6 million. The case was an                  demand repayment of the costs at issue. 
 give rise to obligations that are fully
  appeal of the government’s decision                    The settlement was for $0.
               reported on USAID’s financial statements,
  to disallow cost which had allegedly 
                                                           none of which are contingent. It is not
  been incurred by the appellant.                     USAID’s normal course of business            USAID’s normal business practice to enter
  The appellant requested that the Board              involves the execution of project agree-     into other types of agreements or treaties
  enter a judgment that the Govern-                   ments with foreign governments that are      with foreign governments that create
  ment is not entitled to disallow and                a type of treaty. All of these agreements    contingent liabilities.


nOte 15. reCOVery ACt FUnDS

                                                                                                   In February, 2009, Congress passed
      reCOVery ACt ASSetS, lIABIlItIeS AnD net POSItIOn
                                                                                                   the American Recovery and Reinvest­
                                              (In Thousands)
                                                                                                   ment Act of 2009 (Recovery Act) with
                                                               recovery Act Assets, liabilities    the goal to create jobs, spur economic
                                                                     and net Position              activity and invest in long term economic
                                                                  2010                 2009        growth. This $787 billion Recovery plan
Fund Balance With treasury                                 $        15,862         $     34,379
                                                                                                   includes federal tax cuts and incentives,
                                                                                                   an expansion of unemployment benefits,
total Assets                                                       15,862               34,379
                                                                                                   and other spending on social entitlement
                                                                                                   programs. In addition, federal agencies
accounts Payable                                                     5,624                2,908
                                                                                                   are using Recovery Act funds to award
total liabilities                                                   5,624                2,908
                                                                                                   contracts, grants, and loans around the
unexpended appropriations                                           10,238               31,471
                                                                                                   country.
cumulative results of operations                                         –                    –
                                                                                                   USAID has received $38 million for
total net Position                                                 10,238               31,471
                                                                                                   immediate information technology
total liabilities and net Position                         $       15,862          $    34,379     security and upgrades to support mission-
                                                                                                   critical operations. Due to Agency IT
                                                                                                   priorities and toward maximizing job
                                                               Status of recovery Act Funds
                                                                                                   creation with the Recovery Act funds,
total Budgetary resources                                  $       17,948          $    38,000     USAID determined that the funding
                                                                                                   should be dedicated to the Global Acqui­
obligated Balance                                                   17,948               20,060
                                                                                                   sition and Assistance System (GLAAS)
unobligated Balance                                                      –               17,940
                                                                                                   project. There is one fund in association
total Status of Budgetary resources                        $       17,948          $    38,000
                                                                                                   with the Recovery Act Funds.
total, unpaid obligated Balance, net, end of Period                 15,854               16,439
net Outlays                                                $       18,517          $     3,621
                                                                                                   The balances for each line item in this
                                                                                                   footnote are included in the cumulative
                                                                                                   balances presented in their respective
                                                                                                   financial statements.




104                   USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                              46
nOte 16. IntrAGOVernMentAl COStS
AnD exCHAnGe reVenUe

The Consolidated Statement of Net Cost                 The format of the Consolidated Statement                    bility Segments. Responsibility Segments 

reports the Agency’s gross costs less earned           of Net Cost is consistent with OMB                          are defined in Note 17.

revenues to arrive at net cost of opera-               Circular A-136 guidance.

tions by Objective and Program Area, as                                                                            Intragovernmental costs and exchange
of September 30, 2010. These objectives                Note 16 shows the value of exchange                         revenue sources relate to transactions
are consistent with the State/USAID’s                  transactions between USAID and other                        between USAID and other Federal entities.
Strategic Planning Framework.                          Federal entities as well as non-Federal                     Public costs and exchange revenues on the
                                                       entities. These are also categorized by                     other hand relate to transactions between
                                                       Objectives, Program Areas and Responsi-                     USAID and non-Federal entities.


                                  IntrAGOVernMentAl COStS AnD exCHAnGe reVenUe
                                            By reSPOnSIBIlIty SeGMent
                                                      For the Years Ended September 30, 2010 and 2009
                                                                        (In Thousands)
                                                                                                                     latin
                                                                                           europe                   America
                                                                                             &         Global          &            Middle      2010          2009
 Objective                                Africa      Asia         DCHA         eGAt       eurasia     Health      Caribbean         east       total         total

 Peace and Security
   intragovernmental costs            $      2,882 $ 11,312 $         4,109 $     1,663 $ 6,912 $             – $   7,543       $      1,712 $     36,133 $       27,748
   Public costs                             53,178   457,809        144,329       9,397  130,451              –   182,499             65,593    1,043,256        955,521
      total Program costs                   56,060    469,121       148,438      11,060     137,363           –      190,042          67,305    1,079,389        983,269
   intragovernmental earned revenue           (417)     (1,873)        (687)       (146)     (1,224)          –       (1,136)           (297)      (5,780)         (2,605)
   Public earned revenue                       (80)      (362)         (133)        (28)       (236)          –         (219)            (57)      (1,115)         (1,026)
      total earned revenue                    (497)     (2,235)        (820)       (174)     (1,460)          –       (1,355)           (354)      (6,895)         (3,631)
 net Program Costs                         55,563     466,886       147,618     10,886     135,903            –     188,687          66,951    1,072,494        979,638

 Governing Justly and Democratically
   intragovernmental costs                  11,856     16,790         3,870         843       8,741           –        6,538          11,042       59,680         41,105
   Public costs                            249,070    623,282        93,219       2,856     175,930           –      144,833         443,623    1,732,813      1,718,630
      total Program costs                  260,926    640,072        97,089       3,699     184,671           –      151,371         454,665    1,792,493      1,759,735
   intragovernmental earned revenue         (1,755)     (2,935)        (629)        (57)     (1,384)          –      (13,982)         (1,703)     (22,445)         (4,283)
   Public earned revenue                      (339)      (567)         (122)        (11)       (267)          –         (206)           (329)      (1,841)         (1,686)
      total earned revenue                  (2,094)     (3,502)        (751)        (68)     (1,651)          –      (14,188)         (2,032)     (24,286)         (5,969)
 net Program Costs                        258,832     636,570        96,338      3,631     183,020            –     137,183         452,633     1,768,207     1,753,766

 Investing in People
    intragovernmental costs                118,685     31,852         3,131       1,988       6,167     12,676        13,598          13,098      201,195        147,075
   Public costs                            797,088    911,396        71,522     135,785      69,707    312,702       157,939         505,005    2,961,144      3,319,271
      total Program costs                  915,773    943,248        74,653     137,773      75,874    325,378       171,537         518,103    3,162,339      3,466,346
   intragovernmental earned revenue        (20,268)     (4,649)        (476)    (57,511)       (577)   (123,033)      (1,920)         (1,940)    (210,374)      (387,120)
   Public earned revenue                    (3,915)      (898)          (92)    (97,296)       (111)      (493)         (371)           (375)    (103,551)       (21,213)
      total earned revenue                 (24,183)     (5,547)        (568) (154,807)         (688)   (123,526)      (2,291)         (2,315)    (313,925)      (408,333)
 net Program Costs                        891,590     937,701        74,085     (17,034)    75,186     201,852      169,246         515,788     2,848,414     3,058,013
                                                                                                                                                 (continued on next page)




                                                                  USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                       105
                                                                                                                                                                    47
                                 IntrAGOVernMentAl COStS AnD exCHAnGe reVenUe
                                           By reSPOnSIBIlIty SeGMent
                                                     For the Years Ended September 30, 2010 and 2009
                                                                       (In Thousands)
                                                                                                                latin
                                                                                         europe                America
                                                                                           &         Global       &         Middle        2010         2009
Objective                             Africa         Asia       DCHA         eGAt        eurasia     Health   Caribbean      east         total        total

economic Growth
  intragovernmental costs               26,006        32,660            9     46,982        6,419         –     25,393         18,476       155,945      164,184
  Public costs                         455,190       975,322         140     278,265      175,155         –    216,930        656,626     2,757,628    4,254,573
     total Program costs               481,196     1,007,982         149     325,247      181,574         –    242,323        675,102     2,913,573    4,418,757
  intragovernmental earned revenue       (3,314)      (3,896)          (2)    (96,175)     (1,131)        –      (1,383)       (3,028)     (108,929)    (156,160)
  Public earned revenue                   (640)         (752)           –     (93,278)       (219)        –        996           (572)      (94,465)    (638,092)
     total earned revenue                (3,954)      (4,648)          (2)   (189,453)     (1,350)        –       (387)        (3,600)     (203,394)    (794,252)
net Program Costs                      477,242     1,003,334         147     135,794     180,224          –    241,936       671,502      2,710,179    3,624,505

Humanitarian Assistance
  intragovernmental costs                  784         4,616      105,160           –        212          –      1,943           7,700      120,415       52,551
  Public costs                           2,119       217,034      994,272    191,802        4,985         –     49,392          57,019    1,516,623    1,407,821
     total Program costs                 2,903       221,650    1,099,432    191,802        5,197         –     51,335          64,719    1,637,038    1,460,372
  intragovernmental earned revenue         (18)         (827)      (5,197)          –         (37)        –       (349)           (236)      (6,664)      (3,384)
  Public earned revenue                      (3)        (160)      (1,004)          –          (7)        –        (67)            (46)      (1,287)      (1,334)
     total earned revenue                  (21)         (987)      (6,201)          –         (44)        –       (416)           (282)      (7,951)      (4,718)
net Program Costs                        2,882      220,663     1,093,231    191,802       5,153          –     50,919         64,437     1,629,087    1,455,654

Operating Unit Management
  intragovernmental costs               18,837        27,618       21,200     20,473       10,230         –      6,407            1,919     106,684      26,444
  Public costs                          49,794        49,189       65,049     38,129       32,381         –     25,995           14,140     274,677     118,754
     total Program costs                68,631        76,807       86,249     58,602       42,611         –     32,402           16,059     381,361     145,198
  intragovernmental earned revenue        (544)         (281)        (448)     (1,122)       (257)        –       (196)             (40)     (2,888)       (868)
  Public earned revenue                   (105)          (54)         (87)      (216)         (50)        –         (38)             (8)       (558)       (155)
     total earned revenue                 (649)         (335)        (535)     (1,338)       (307)        –       (234)             (48)     (3,446)     (1,023)
net Program Costs                       67,982       76,472       85,714      57,264      42,304          –     32,168          16,011     377,915     144,175
net Cost of Operations               $1,754,091 $3,341,626 $1,497,133 $382,343 $ 621,790 $ 201,852 $ 820,139               $ 1,787,322 $10,406,296 $11,015,751




 106                      USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                                                 48
nOte 17. SUBOrGAnIZAtIOn PrOGrAM COStS/PrOGrAM COStS By SeGMent
The Suborganization Program Costs/                    directly support the Agency’s goals while        are (i) the Geographic Bureaus and (ii)
Program Costs by Segment categorizes                  the remaining bureaus and offices support        the Technical Bureaus. The Geographic
costs and revenues by Objectives, Program             the operations of these bureaus. To report       Bureaus include: Africa; Asia; Middle
Areas and Responsibility Segment.                     the full cost of program outputs, the            East; Latin America and the Caribbean;
                                                      cost of support bureaus and offices are          and Europe and Eurasia. Technical
A responsibility segment is the                       allocated to the outputs of the geographic       Bureaus are referred to as Democracy,
component that carries out a mission or               and technical bureaus. Intra-agency              Conflict, and Humanitarian Assis­
major line of activity, and whose managers            eliminations are allocated to Program            tance (DCHA); Economic Growth,
report directly to top management. The                Areas to reflect total costs.                    Agriculture,and Trade (EGAT) and
geographic and technical bureaus of                                                                    Global Health (GH).
USAID (below) meet the criteria of a                  The FY 2010 Consolidated Statement of
responsibility segment. These bureaus                 Net Cost major responsiblitiy segments


                                   SCHeDUle OF COStS By reSPOnSIBIlIty SeGMent
                                                         For the Year Ended September 30, 2010
                                                                      (In Thousands)
                                                                                            europe                        latin
                                                                                              &            Global       America &      Middle       Consolidated
Objective                                    Africa         Asia       DCHA      eGAt       eurasia        Health       Caribbean       east           total
Peace and Security
  counter-terrorism
     Gross costs                                $    12,508 $      332 $       12 $       – $        – $            – $          – $      4,393 $        17,245
     less: exchange revenues                           (118)        (1)         –         –          –              –            –          (24)           (143)
     net Program costs                               12,390        331         12         –          –              –            –        4,369          17,102
  combating Weapons of mass destruction (Wmd)
     Gross costs                                          –          –         12         –    65,720               –            –              –        65,732
     less: exchange revenues                              –          –          –         –      (725)              –            –              –          (725)
     net Program costs                                    –          –         12         –    64,995               –            –              –        65,007
  stabilization operations and security sector reform
     Gross costs                                      9,487      1,774        532         –     1,123               –      35,268         3,379          51,563
     less: exchange revenues                            (88)       (10)        (4)        –         (9)             –        (211)          (27)           (349)
     net Program costs                                9,399      1,764        528         –     1,114               –      35,057         3,352          51,214
  counter-narcotics
     Gross costs                                         24    279,550         12         –         97              –     146,021               2       425,706
     less: exchange revenues                              –     (1,384)         –         –         (1)             –      (1,105)              –        (2,490)
     net Program costs                                   24    278,166         12         –         96              –     144,916               2       423,216
  transnational crime
     Gross costs                                        150      7,919         12    1,592      3,927               –        1,361        3,052          18,013
     less: exchange revenues                              –        (39)         –       (35)       (30)             –          (10)         (14)           (128)
     net Program costs                                  150      7,880         12    1,557      3,897               –        1,351        3,038          17,885
  conflict mitigation and reconciliation
     Gross costs                                     33,891    179,546    147,858    9,468     66,496               –       7,392        56,479          501,130
     less: exchange revenues                           (291)      (801)      (816)    (139)      (695)              –          (29)        (289)          (3,060)
     net Program costs                               33,600    178,745    147,042    9,329     65,801               –       7,363        56,190          498,070
     total Peace & Security                         55,563    466,886    147,618    10,886    135,903               –     188,687       66,951        1,072,494
Governing Justly and Democratically
  rule of law and human rights
     Gross costs                               19,055        35,361     3,944      2,276     34,079                 –       68,976       31,808         195,499
     less: exchange revenues                     (188)         (166)      (54)       (45)      (289)                –      (13,389)        (146)        (14,277)
     net Program costs                         18,867        35,195     3,890      2,231     33,790                 –       55,587       31,662         181,222
                                                                                                                                          (continued on next page)




                                                            USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                       10750
                               SCHeDUle OF COStS By reSPOnSIBIlIty SeGMent (continued)
                                                               For the Year Ended September 30, 2010
                                                                            (In Thousands)
                                                                                                     europe                     latin
                                                                                                       &         Global       America &   Middle      Consolidated
Objective                                          Africa         Asia        DCHA      eGAt         eurasia     Health       Caribbean    east          total
  Good Governance
     Gross costs                                     97,640       414,102     66,012         908      47,112              –     51,387     263,113         940,274
     less: exchange revenues                           (811)       (2,531)      (447)        (13)       (448)             –       (556)     (1,130)         (5,936)
     net Program costs                               96,829       411,571     65,565         895      46,664              –     50,831     261,983         934,338
  Political competition and consensus-Building
     Gross costs                                    112,747       136,976      9,907           –      29,699              –     13,237      13,900         316,466
     less: exchange revenues                           (864)         (534)      (112)          –        (258)             –        (95)       (161)         (2,024)
     net Program costs                              111,883       136,442      9,795           –      29,441              –     13,142      13,739         314,442
  civil society
     Gross costs                                     31,484        53,633     17,226         515      73,781              –     17,771     145,844         340,254
     less: exchange revenues                           (231)         (271)      (138)        (10)       (656)             –       (148)       (595)         (2,049)
     net Program costs                               31,253        53,362     17,088         505      73,125              –     17,623     145,249         338,205
     total Governing Justly and
         Democratically                            258,832       636,570      96,338      3,631      183,020              –    137,183    452,633       1,768,207
Investing in People
   health
     Gross costs                                     576,352      203,756     26,172      11,876      50,213      325,378       44,780     182,785       1,421,312
     less: exchange revenues                         (21,360)       (2,380)     (167)       (274)       (497)    (123,526)      (1,325)       (729)       (150,258)
     net Program costs                               554,992      201,376     26,005      11,602      49,716      201,852       43,455     182,056       1,271,054
   education
     Gross costs                                     283,783      357,240     20,325      19,638      18,724              –     62,483     114,461         876,654
     less: exchange revenues                          (2,412)       (1,440)     (151)       (288)       (142)             –       (440)       (460)         (5,333)
     net Program costs                               281,371      355,800     20,174      19,350      18,582              –     62,043     114,001         871,321
   social and economic services and Protection for Vulnerable Populations
     Gross costs                                      55,638      382,252     28,156     106,259       6,937           –        64,274     220,857         864,373
     less: exchange revenues                            (411)       (1,727)     (250)   (154,245)         (49)         –          (526)     (1,126)       (158,334)
     net Program costs                                55,227      380,525     27,906      (47,986)     6,888           –        63,748     219,731         706,039
     total Investing in People                      891,590      937,701      74,085     (17,034)     75,186     201,852       169,246    515,788       2,848,414
economic Growth
  macroeconomic Foundation for Growth
      Gross costs                                     4,029        31,680         23      72,119      36,189              –     15,212     216,144         375,396
      less: exchange revenues                            (5)         (160)        (2)   (105,905)       (202)             –        (90)     (1,646)       (108,010)
      net Program costs                               4,024        31,520         21     (33,786)     35,987              –     15,122     214,498         267,386
  trade and investment
      Gross costs                                    36,719        39,567         18       3,270       4,477              –     32,049      35,894         151,994
      less: exchange revenues                          (340)         (172)         –         (51)        (34)             –       (244)       (136)           (977)
      net Program costs                              36,379        39,395         18       3,219       4,443              –     31,805      35,758         151,017
  Financial sector
      Gross costs                                    12,700        19,894         18      35,647      15,059              –        951     104,418         188,687
      less: exchange revenues                          (107)          (75)         –     (78,619)       (119)             –         (9)       (320)        (79,249)
      net Program costs                              12,593        19,819         18     (42,972)     14,940              –        942     104,098         109,438
  infrastructure
      Gross costs                                    86,273       476,982         18       8,719      30,858              –      9,489      89,794         702,133
      less: exchange revenues                          (575)       (2,189)         –        (198)       (254)             –        (81)       (332)         (3,629)
      net Program costs                              85,698       474,793         18       8,521      30,604              –      9,408      89,462         698,504
  agriculture
      Gross costs                                   225,238       179,976         18    127,711       19,927              –     40,397      69,452         662,719
      less: exchange revenues                        (1,913)         (827)         –     (2,986)        (165)             –       (253)       (325)         (6,469)
      net Program costs                             223,325       179,149         18    124,725       19,762              –     40,144      69,127         656,250
                                                                                                                                             (continued on next page)



108                    USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                                                 51
                             SCHeDUle OF COStS By reSPOnSIBIlIty SeGMent (continued)
                                                           For the Year Ended September 30, 2010
                                                                        (In Thousands)
                                                                                                europe                     latin
                                                                                                  &         Global       America &   Middle       Consolidated
Objective                                   Africa           Asia       DCHA         eGAt       eurasia     Health       Caribbean    east           total
  Private sector competitiveness
     Gross costs                              30,647         151,906          18       9,392     68,018              –     41,974      50,971         352,926
     less: exchange revenues                    (276)           (710)          –        (193)      (512)             –       (293)       (256)         (2,240)
     net Program costs                        30,371         151,196          18       9,199     67,506              –     41,681      50,715         350,686
  economic opportunity
     Gross costs                              15,337          53,268          18      27,752      6,428              –      9,208      68,706         180,717
     less: exchange revenues                    (149)           (260)          –        (626)       (59)             –      1,209        (379)           (264)
     net Program costs                        15,188          53,008          18      27,126      6,369              –     10,417      68,327         180,453
  environment
     Gross costs                             70,253           54,709          18      40,637        618              –     93,043      39,723          299,001
     less: exchange revenues                   (589)            (255)          –        (875)        (5)             –       (626)       (206)          (2,556)
     net Program costs                       69,664           54,454          18      39,762        613              –     92,417      39,517          296,445
     total economic Growth                  477,242        1,003,334         147     135,794    180,224              –    241,936    671,502        2,710,179
Humanitarian Assistance
  Protection,assistance and solutions
     Gross costs                                     80      194,306    1,047,512           –     4,318              –     14,775      64,717        1,325,708
     less: exchange revenues                         (1)        (830)      (5,820)          –       (36)             –       (118)       (282)          (7,087)
     net Program costs                               79      193,476    1,041,692           –     4,282              –     14,657      64,435        1,318,621
  disaster readiness
     Gross costs                               2,823           1,318      51,902     191,802        260              –     36,560             2       284,667
     less: exchange revenues                     (20)             (6)       (381)          –         (2)             –       (298)            –          (707)
     net Program costs                         2,803           1,312      51,521     191,802        258              –     36,262             2       283,960
  migration management
     Gross costs                                   –          26,026        18             –        619              –          –          –           26,663



                                                                               E D
     less: exchange revenues                       –            (151)        –             –         (6)             –          –          –             (157)


                                                                            AT
                                                                        UPD
     net Program costs                             –          25,875        18             –        613              –          –          –           26,506
     total Humanitarian Assistance             2,882         220,663 1,093,231       191,802      5,153              –     50,919     64,437        1,629,087



                                          NOT
Operating Unit Management
  cross-cutting management and staffing
     Gross costs                              12,237          19,970        3,488        573     10,180              –      1,137       2,852          50,437
     less: exchange revenues                    (147)           (117)         (27)       (11)       (89)             –         (9)          4            (396)
     net Program costs                        12,090          19,853        3,461        562     10,091              –      1,128       2,856          50,041
  Program design and learning
     Gross costs                              11,905           7,173        2,837     15,854      3,396              –      2,578       6,326          50,069
     less: exchange revenues                     (89)            (42)         (18)      (355)       (23)             –        (18)        (24)           (569)
     net Program costs                        11,816           7,131        2,819     15,499      3,373              –      2,560       6,302          49,500
  administration and oversight
     Gross costs                             44,489           49,664      79,924      42,175     29,035              –     28,687   6,881      280,855
     less: exchange revenues                   (413)            (176)       (490)       (972)      (195)             –       (207)     (28)     (2,481)
     net Program costs                       44,076           49,488      79,434      41,203     28,840              –     28,480   6,853      278,374
     total Operating Unit Management         67,982           76,472      85,714      57,264     42,304              –     32,168  16,011     377,915
net Cost of Operations                    $1,754,091 $3,341,626 $1,497,133 $ 382,343 $ 621,790             $ 201,852 $ 820,139 $1,787,322 $10,406,296




                                                             USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                    109
                                                                                                                                                           52
nOte 18. StAteMent OF BUDGetAry reSOUrCeS
The Combined Statement of Budgetary            USAID’s total budgetary resources were 
    D. legal Arrangements Affecting
Resources presents information about           $24.9 and $19.0 billion for the years 
     the Use of Unobligated Balances:
total budgetary resources available to         ended September 30, 2010 and 2009, 

USAID and the status of those resources,       respectively.
                              The “Consolidated Appropriations Act,
as of September 30, 2010 and 2009. 
                                                       2010” signed into law as P.L. 111-117
                                                                                           provides to USAID extended authority
A. Apportionment Categories of Obligations Incurred:                                       to obligate funds. USAID’s appro­
                                                                                           priations acts for years have consistently
   APPOrtIOnMent CAteGOrIeS OF OBlIGAtIOnS InCUrreD                                        provided essentially similar authority.
                                                                                           It is commonly known as “511/517”
                                       (In Thousands)
                                                                                           authority, a name that is based on refer­
                                                             2010             2009         ences to the sections of the previous
 category a, direct                                      $   1,335,392    $   1,048,679    appropriations acts. Under this authority
 category B, direct                                          14,156,447       10,464,573   funds shall remain available for obliga­
 category a, reimbursable                                       56,747           16,911    tion for an extended period if such funds
 category B, reimbursable                                      126,297          427,875    are obligated within their initial period
 total                                                   $ 15,674,883     $ 11,958,038
                                                                                           of availability. Any subsequent recoveries
                                                                                           (deobligations) of these funds become
                                                                                           unobligated balances that are available for
B. Borrowing Authority, end of                 C. Permanent Indefinite                     reprogramming by USAID (subject to
Period and terms of Borrowing                  Appropriations:                             OMB approval through the apportion­
Authority Used:                                                                            ment process).
                                               USAID has permanent indefinite appro­
The Agency had $900 thousand in                priations relating to specific Federal
borrowing authority in FY 2010.                Credit Reform Program and Liquidating       e. Unpaid Obligations:
The Agency did not have borrowing              appropriations. USAID is authorized
                                                                                           Unpaid Obligations for the periods ended
authority in FY 2009. Borrowing                permanent indefinite authority for
                                                                                           September 30, 2010 and 2009 were $17.9
authority is indefinite and authorized         Federal Credit Reform Program appro­
                                                                                           and $14.4 billion.
under the Federal Credit Reform Act            priations for subsidy reestimates and
of 1990 (Title XIII, Subtitle B, P.L.          Federal Credit Reform Act of 1990.
101-508), and is used to finance obliga­       At year-end FY 2010, there is $2.59
tions during the current year, as needed.      billion in availablity related to Federal
                                               Credit Reform Program and Liquidating
                                               appropriations.




110                   USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                    53
F. Difference between the Statement of Budgetary resources and the
Budget of the U.S. Government:

There are no material differences between              Budget with actual numbers for 2010 has        FY 2010 reported results when the budget
the Statement of Budgetary Resources                   not yet been published. USAID expects          becomes available in February 2011.
for FY 2010 and the President’s Budget                 no material difference between the Presi­
submission for FY 2010. The President’s                dent’s Budget “actual” column and the


                         DIFFerenCe Between tHe StAteMent OF BUDGetAry reSOUrCeS AnD
                                       tHe BUDGet OF tHe U.S. GOVernMent
                                                                       (In Thousands)
                                                                        Budgetary                            Offsetting
                             Fy 2010                                    resources        Obligations         receipts         net Outlays
 combined statement of Budgetary resources                             $   24,957,025    $   15,674,883     $      71,742     $    9,530,455
 difference #1: Funds reported by other Federal entities                    6,968,746         6,369,549                –           4,252,304
 difference #2: child activity reported by usaid                                    –                 –                –                   –
 difference #3: reported in the sBr but excluded from sF-133s                (118,409)         (152,916)               –             (86,834)
 difference #4: Parent/chid reporting differences                             13,468            13,792                 –             (44,921)
 difference #5: reporting difference between the sBr and sF-133s              (36,601)          (18,244)               –             24,679
 difference #6: credit Financing and suspense                                (329,818)                –                –                   –
 Budget of the u.s. Government                                         $   31,454,411    $   21,887,064     $      71,742     $   13,675,683




                                                                USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                  111
                                                                                                                                          54
nOte 19. reCOnCIlIAtIOn OF net COSt OF OPerAtIOnS tO BUDGet
USAID presents the Consolidated                            Statement of Budgetary Resources. The            budgetary net obligations to the net
Statement of Net Cost using the accrual                    Federal Financial Accounting Standard            cost of operations. The objective of this
basis of accounting. This differs from the                 No. 7 requires “a reconciliation of propri-      information is to categorize the differences
obligation-based measurement of total                      etary and budgetary information in a             between budgetary and financial (propri­
resources supplied, both budgetary and                     way that helps users relate the two.” The        etary) accounting.
from other sources, on the Combined                        focus of this presentation is to reconcile


                  reCOnCIlIAtIOn OF OBlIGAtIOnS InCUrreD tO net COSt OF OPerAtIOnS
                                                          For the Years Ended September 30, 2010 and 2009
                                                                            (In Thousands)
                                                                                                                      2010                 2009
 resources Used to Finance Actvities:
      Budgetary resources obligated
         obligations incurred                                                                                     $ 15,674,883         $ 11,958,038
         spending authority from offsetting collections                                                              (1,506,317)          (1,237,663)
         change in unfilled customer orders                                                                           (458,220)               (8,338)
         downward adjustments of obligations                                                                          (676,857)            (391,947)
         offsetting receipts                                                                                           (71,742)             182,729
      net obligations                                                                                               12,961,747           10,502,819
      other resources used to finance activities                                                                         9,835               13,263
      resources used to Finance activities                                                                          12,971,582           10,516,082
      resources used to Finance items not part of net cost of operations                                             (3,194,175)             99,154
 total resources used to Finance net cost of operations                                                              9,777,407           10,615,236

 Components of the net Cost of Operations:
      components of net cost of operations that will require or generate resources in future periods                   515,508              313,001
      components of net cost of operations that will not require or generate resources                                 113,381               87,514
 net cost of operations                                                                                           $ 10,406,296         $ 11,015,751




112                     USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                                  55
        statement oF BudGetarY
        resources


         reqUIreD SUPPleMentAry InFOrMAtIOn: COMBInInG SCHeDUle OF BUDGetAry reSOUrCeS
                                    For the period ended September 30, 2010
                                                                                                     (In Thousands)
                                                recovery                                                                                                             Credit-                  Parent       Combined
                                                  Act    Operating                                                      Program                                     Financing     Other        Fund          total
                                                    302        1000         305           1010         1021          1035         1037        1093       1095

Budgetary resources:
unobligated Balance, Brought Forward, october 1 $   17,940 $ 285,923 $ 30,000         $    20,386 $ 546,392        $ 310,344 $ 2,445,976 $ 107,963 $ 76,136 $1,643,447 $1,353,548 $ 165,794 $ 7,003,849
recoveries of Prior Year unpaid obligations               8     35,434            –        17,281       93,226        66,183      174,434      27,380     91,619            –      37,877      133,415       676,857
Budget authority:                                                                                                                                                                                                   –
   appropriation                                          –   1,388,800    30,000                –    2,520,000    1,305,000    8,844,000            –          –           –    1,767,509             –   15,855,309
   Borrowing authority                                    –           –           –              –            –             –            –           –          –        900              –            –         900
   spending authority from
      offsetting collections:                                                                                                                                                                                       –
       earned:                                                                                                                                                                                                      –
            collected                                     –     47,379            –              –       5,135          192       114,865            –          –     800,209     536,836        1,701      1,506,317
            change in receivables from
               Federal sources                            –           –           –              –            –             –            –           –          –           –             –       (174)          (174)
       change in unfilled customer orders:
            advance received                              –           –           –              –            –             –            –           –          –           –     460,853              –     460,853
            Without advance from
               Federal sources                            –      4,311            –              –         119              –        2,445           –          –           –       (9,508)            –       (2,633)
   subtotal                                               –   1,440,490    30,000                –    2,525,254    1,305,192    8,961,310            –          –     801,109    2,755,690       1,527     17,820,572
nonexpenditure transfers, net,
  anticipated and actual                                  –      2,376            –          856        (59,951)       2,531      (953,231)      (621)          6         (54)     (29,753)    928,315       (109,526)
Permanently not available                                 –           (5) (30,000)           558         3,196         1,934       93,878       8,534    (15,059)           –    (497,763)             –     (434,727)
total Budgetary resources                      $    17,948 $1,764,218 $ 30,000        $    39,081 $ 3,108,117      $1,686,184 $10,722,367 $ 143,256 $ 152,702 $2,444,502 $3,619,599 $1,229,051 $ 24,957,025


Status of Budgetary resources:
obligations incurred:
   direct                                      $    17,940 $1,270,292 $ 21,465        $    14,160 $ 2,424,970      $1,278,877 $ 6,767,020 $ 120,593 $ 132,390 $        59,921 $2,705,143 $ 679,071 $ 15,491,842
   reimbursible                                           –     51,688            –              –       5,255          192       117,311            –          –           –       8,595              –     183,041
   subtotal                                         17,940    1,321,980    21,465          14,160     2,430,225    1,279,069    6,884,331     120,593    132,390       59,921    2,713,738     679,071     15,674,883
unobligated Balance:                                                                                                                                                                                                –
   apportioned                                            –    132,505      8,535          22,348      612,910       193,748    3,838,140      20,456     10,782       30,939     783,990      390,060      6,044,413
   subtotal                                               –    132,505      8,535          22,348      612,910       193,748    3,838,140      20,456     10,782       30,939     783,990      390,060      6,044,413
unobligated Balance not available                         8    309,733            –         2,573       64,982       213,367          (104)     2,207      9,530    2,353,642     121,871      159,920      3,237,729
total, Status of Budgetary resources           $    17,948 $1,764,218 $ 30,000        $    39,081 $ 3,108,117      $1,686,184 $10,722,367 $ 143,256 $ 152,702 $2,444,502 $3,619,599 $1,229,051 $ 24,957,025

                                                                                                                                                                                              (continued on next page)




                                                                                          USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                        115
                                                                                                                                                                                                             56
 reqUIreD SUPPleMentAry InFOrMAtIOn: COMBInInG SCHeDUle OF BUDGetAry reSOUrCeS (continued)
                               For the period ended September 30, 2010
                                                                                                      (In Thousands)
                                                 recovery                                                                                                               Credit-                   Parent       Combined
                                                   Act    Operating                                                      Program                                       Financing     Other         Fund          total
                                                     302          1000        305         1010          1021          1035         1037         1093        1095

Change in Obligated Balance:
obligated Balance, net
   unpaid obligations, Brought Forward,
   october 1                                     $    16,439 $ 395,890 $            – $ 139,905 $ 3,095,591 $ 770,840            $ 7,809,204 $ 246,211 $ 347,363 $          (639) $ 853,928      $ 746,724 $ 14,421,456
   less: uncollected customer Payments from
   Federal sources, Brought Forward, october 1             –        (6,074)         –          (35)       (2,271)        (205)        (1,871)        (38)    (1,006)          35      (15,678)         (536)       (27,679)
   total unpaid obligated Balance, net               16,439       389,816           –     139,870      3,093,320      770,635      7,807,333    246,173     346,357         (604)    838,250       746,188     14,393,777
obligations incurred net (+/-)                       17,940      1,321,982    21,463       14,160      2,430,223    1,279,069      6,884,331    120,592     132,394       59,921    2,713,734      679,074     15,674,883
less: Gross outlays                                  (18,516) (1,033,214)     (7,824)     (131,056) (1,805,077)      (875,780)    (4,913,925)   (229,903) (148,099)      (62,033) (1,647,627)      (624,569)   (11,497,623)
less: recoveries of Prior Year unpaid
   obligations,actual                                      (9)     (35,433)         –      (17,281)      (93,226)     (66,183)     (174,434)     (27,380)   (91,619)           –      (37,877)     (133,415)     (676,857)
change in uncollected customer Payments
   from Federal sources (+/-)                              –        (4,311)         –            –         (119)             –        (2,445)          –           –           –       9,507            174          2,806
obligated Balance, net, end of Period
   unpaid obligations                                15,854       649,225     13,640         5,728     3,627,510    1,107,946      9,605,176    109,520     240,039       (2,751) 1,882,158        667,815     17,921,860
   less: uncollected customer Payments from
      Federal sources                                      –       (10,385)       (1)          (35)       (2,389)        (205)        (4,316)        (38)    (1,006)          35       (6,171)         (363)       (24,874)
total, Unpaid Obligated Balance, net,
   end of Period                                     15,854       638,840     13,639         5,693     3,625,121    1,107,741      9,600,860    109,482     239,033       (2,716) 1,875,987        667,452     17,896,986

net Outlays:
   Gross outlays                                     18,517      1,033,212     7,825      131,055      1,805,078      875,781      4,913,925    229,906     148,095       62,033    1,647,628      624,568     11,497,623
   less: offsetting receipts                               –       (47,379)         –            –        (5,135)        (192)     (114,865)           –           –    (800,209)   (997,687)        (1,701)    (1,967,168)
   less: distributed offsetting receipts                   –             –          –            –             –             –             –           –           –      71,742             –             –       71,742

net Outlays                                      $   18,517 $ 985,833 $ 7,825           $ 131,055 $ 1,799,943       $ 875,589    $ 4,799,060 $ 229,906 $ 148,095 $ (666,434) $ 649,941 $ 622,867 $ 9,602,197




       116                              USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION
                                                                                                                                                                                                                57
MAJOr FUnDS                                                 OtHer FUnDS                                              AllOCAtIOnS tO OtHer AGenCIeS
Operating Funds                                             Operating Funds                                          1010 special assistance initiatives
1000 operating expenses of usaid                            0300 capital investment Fund (ciF)                       1021 development assistance
Program Funds                                               0302 capital investment Fund-recovery act
                                                                                                                     1027 transition initiatives
1010 special assistance initiatives                         0306 assistance for europe, eurasia and central asia
                                                                                                                     1035 international disaster assistance
1021 development assistance                                 1007 operating expenses of usaid inspector General
1035 international disaster assistance                      1036 Foreign service retirement and disability Fund      1037 economic support Fund
1037 economic support Fund                                  Program Funds                                            1093 assistance for the n.i.s. of the Former soviet union
1093 assistance for the n.i.s. of the Former soviet union   0305 civilian stabilization initiative                   1095 child survival and disease Programs Funds
1095 child survival and disease Programs Funds              1012 sahel development Program
                                                            1015 complex crisis Fund                                 AllOCAtIOnS FrOM OtHer AGenCIeS
CreDIt- FInAnCInG FUnDS                                     1023 Food and nutrition development assistance
                                                                                                                     1000 operating expenses of usaid
                                                            1024 Population and Planning & health dev.asst.
4119 israel Guarantee Financing Fund                                                                                 1014 africa development assistance
                                                            1025 education and human resources, dev.asst.
4137 direct loan Financing Fund                                                                                      1030 Global hiV/aids initiative-appropriations carry
                                                            1027 transition initiatives
4266 dca Financing Fund                                                                                                   over
                                                            1028 Global Fund to Fight hiV / aids
4342 msed direct loan Financing Fund                                                                                 1031 Global health and child survival
                                                            1029 tsunami relief and reconstruction Fund
4343 msed Guarantee Financing Fund                                                                                   1096 international organizations and Programs
                                                            1038 central american reconciliation assistance
4344 ue Financing Fund
                                                            1040 sub-saharan africa disaster assistance
4345 ukraine Financing Fund
                                                            1096 latin american/caribbean disaster recovery
4491 egypt Guarantee Financial Fund
                                                            1500 demobilization and transition Fund
                                                            trust Funds
                                                            8342 Foreign natl. employees separation liability Fund
                                                            8502 tech.assist. - u.s. dollars advance from Foreign
                                                            8824 Gifts and donations
                                                            Credit Program Funds
                                                            0400 msed Program Fund
                                                            0401 ue Program Fund
                                                            0402 ukraine Program Fund
                                                            1264 dca Program Fund
                                                            4103 economic assistance loans - liquidating Fund
                                                            4340 ue Guarantee liquidating Fund
                                                            4341 msed direct loan liquidating Fund
                                                            5318 israel admin expense Fund
                                                            revolving Funds
                                                            4175 Property management Fund
                                                            4513 Working capital Fund
                                                            4590 acquisition of Property, revolving Fund




                                                                    USaiD FY 2010 agencY Financial rePort | FINANCIAL SECTION                                                 58
                                                                                                                                                                             117
